<html>
<title> - THE CURRENT AND FUTURE ROLES, MISSIONS, AND CAPABILITIES OF U.S. MILITARY AIR POWER</title>
<body><pre>[Senate Hearing 111-198]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-198
 
   THE CURRENT AND FUTURE ROLES, MISSIONS, AND CAPABILITIES OF U.S. 
                           MILITARY AIR POWER

=======================================================================



                                HEARING

                               before the

                        SUBCOMMITTEE ON AIRLAND

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2009

                               __________

         Printed for the use of the Committee on Armed Services




                  U.S. GOVERNMENT PRINTING OFFICE
54-106                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

                        Subcommittee on Airland

               JOSEPH I. LIEBERMAN, Connecticut, Chairman

EVAN BAYH, Indiana                   JOHN THUNE, South Dakota
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
KAY R. HAGAN, North Carolina         SAXBY CHAMBLISS, Georgia
MARK BEGICH, Alaska                  RICHARD BURR, North Carolina
ROLAND W. BURRIS, Illinois

                                  (ii)




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

   The Current and Future Roles, Missions, and Capabilities of U.S. 
                           Military Air Power

                             april 30, 2009

                                                                   Page

Bolkcom, Christopher, Specialist in Military Aviation, 
  Congressional Research Service.................................     5
Hawley, Gen. Richard E., USAF (Ret.), Former Commander, Air Force 
  Air Combat Command.............................................    13
Nelson, Hon. Bill, U.S. Senator from the State of Florida........    17
Watts, Barry D., Senior Fellow, Center for Strategic and 
  Budgetary Assessments..........................................    17

                                 (iii)


   THE CURRENT AND FUTURE ROLES, MISSIONS, AND CAPABILITIES OF U.S. 
                           MILITARY AIR POWER

                              ----------                              


                        THURSDAY, APRIL 30, 2009

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:02 p.m. in 
room SR-222, Russell Senate Office Building, Senator Joseph I. 
Lieberman (chairman of the subcommittee) presiding.
    Committee members present: Senators Lieberman, Hagan, 
Begich, Burris, Inhofe, Chambliss, and Thune.
    Also present: Senator Bill Nelson.
    Committee staff members present: Leah C. Brewer, 
nominations and hearings clerk; and Paul J. Hubbard, 
receptionist.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Creighton Greene, professional staff member; and 
William K. Sutey, professional staff member.
    Minority staff member present: Pablo E. Carrillo, minority 
investigative counsel.
    Staff assistants present: Mary Holloway and Brian F. 
Sebold.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Christopher Caple, assistant to 
Senator Bill Nelson; Jon Davey, assistant to Senator Bayh; 
Michael Harney, assistant to Senator Hagan; David Ramseur, 
assistant to Senator Begich; Brady King, assistant to Senator 
Burris; Anthony J. Lazarski, assistant to Senator Inhofe; 
Sandra Luff, assistant to Senator Sessions; Clyde A. Taylor IV, 
assistant to Senator Chambliss; and Jason Van Beek, assistant 
to Senator Thune.

   OPENING STATEMENT OF SENATOR JOSEPH I. LIEBERMAN, CHAIRMAN

    Senator Lieberman. Good afternoon. The subcommittee will 
come to order.
    In this meeting of the Subcommittee on Airland, we're going 
to follow on a hearing we held on March 26, in which we talked 
about our ground forces. There are two hearings intended to 
broadly explore our country's current and future roles, 
missions, and requirements for the land- and air-power forces 
of our military. Today, we turn our discussion to America's 
military air power.
    We are now contemplating a number of major decisions that 
would affect the organization and capabilities of American 
military air power for some time to come. Earlier this month, 
April 6, Secretary of Defense Gates announced a series of 
recommendations that he would make to President Obama for the 
Fiscal Year 2010 Defense Budget, which we'll get in a while. 
Those included proposals to end production of the F-22 Raptor 
and the C-17 Globemaster, to add funds to procure unmanned 
intelligence, surveillance, and reconnaissance (ISR) systems, 
and to delay the production of a follow-on bomber.
    Today, we're privileged to have three informed and 
experienced witnesses who I look forward to asking to assess 
the recommendations that Secretary Gates made, and, in 
particular, to discuss the implications of these 
recommendations for the operational capabilities of the air-
power units of our military.
    Many of our colleagues here in the Senate, including 
myself, have expressed concern about some of the specific 
proposals, particularly regarding the F-22, the F/A-18 E/F, and 
the next-generation bomber. I believe it's essential that 
Congress assess these recommendations against the obvious 
reality, which is the immediate budgetary constraints, but also 
the less obvious reality, because it's slightly longer 
distance, which is the operational requirements for air power 
in the years ahead.
    I also look forward to hearing from the witnesses an 
assessment of the long-term requirements for air power, in this 
sense, about how we can better anticipate emerging capabilities 
that will affect us in the future. I'm particularly interested 
in our witnesses' thoughts about how we should respond to and 
anticipate follow-on technologies to the unmanned aerial 
systems that are now providing full-motion video surveillance 
over the battlefield, something that could not have been 
contemplated even a few years ago.
    If we look out 10 or 20 years, the composition of our air 
forces could be dramatically different than it is today. 
Looking to future threats, I'm concerned about the growing 
density of anti-access capabilities that are intended to limit 
the freedom of maneuver that American air power has enjoyed in 
recent times, and I'm concerned about the apparent 
vulnerability of U.S. military operations to such threats as 
the cyber warriors who attack our computer networks.
    In short, I hope this afternoon's discussion will inform 
the subcommittee as we go forward, after the President submits 
the budget for the Department of Defense (DOD), to make our own 
authorization recommendations to the full committee and the 
Senate as to how best to invest in capabilities, near-term and 
longer-term, that will protect the security of the American 
people.
    I thank the witnesses for being here. I look forward to 
your testimony.
    Now, Senator Thune. Thank you.

                STATEMENT OF SENATOR JOHN THUNE

    Senator Thune. Thank you, Mr. Chairman. Thank you for 
calling this hearing to examine the current and future roles, 
missions, and capabilities of U.S. military air power. I want 
to thank our esteemed witnesses, as well, for appearing today. 
The topic of our hearing today is of the utmost importance to 
me.
    We're here on the occasion of Secretary of Defense Gates' 
April 6, 2009, press conference on recommendations he's making 
to the President on the Fiscal Year 2010 Defense Budget. I'm a 
strong supporter of Secretary Gates and admire his courage to 
restructure a number of major defense programs. It's long been 
necessary to shift spending away from weapon systems that are 
plagued by scheduling and cost overruns to ones that strike the 
correct balance between the needs of our deployed forces and 
the requirements for meeting the emerging threats of tomorrow. 
I also greatly appreciate that Secretary Gates continues to 
place the highest priority on supporting the men and women of 
the U.S. Armed Forces.
    Having said that, I do have some fundamental concerns. One 
question I have in terms of military aviation, and from the 
standpoint of military necessity, is Secretary Gates' plan on 
air power modernization too unbalanced in favor of short-range 
fighters versus long-range strike aircraft?
    On October 7, 2001, when Operation Enduring Freedom in 
Afghanistan started, early combat operations included a mix of 
air strikes from land-based B-1 Lancer, B-2 Spirit, and B-52 
Strato fortress bombers, carrier-based F-14 Tomcat, and F/A-18 
Hornet fighters and Tomahawk cruise missiles launched from both 
U.S. and British ships and submarines. During that war, U.S. 
aircraft had to operate at far greater distances than they had 
in past conflicts. U.S. air power may have to do the same in 
future wars.
    Furthermore, during the major combat phase of Operation 
Iraqi Freedom, B-1s carrying 24 Joint Direct Attack Munitions 
(JDAMs) provided round-the-clock, on-call, precision-fire 
support for coalition ground forces. The integration of JDAM 
and laser-guided bombs on long-range bombers has dramatically 
increased their effectiveness in conventional operations.
    U.S. air forces operating in Asia and the Pacific might 
well have to travel several times farther than U.S. forces 
typically had to during the Cold War. The need for aircraft 
that can loiter over the battlefield for long durations to find 
emerging, fleeting, or otherwise time-sensitive targets in 
support of ground forces, for example, appears to be growing. 
The possibility that, with his proposal, Secretary Gates may 
have struck an inappropriate balance in favor of short-range 
systems versus long-range strike aircraft is perhaps no better 
reflected than in what he wants to do with the next-generation 
bomber program.
    As part of Secretary Gates' plan to modernize our strategic 
and nuclear-force capability, he proposes to discontinue the 
development of a follow-on Air Force bomber until we have a 
better understanding of the need, the requirement, and the 
technology, and examine all of our strategic requirements 
during the Quadrennial Defense Review (QDR), the Nuclear 
Posture Review, and in light of post-Strategic Arms Reduction 
Treaty (START) arms-control negotiations.
    Aside from the position I laid out just a moment ago, I 
have a couple of other questions here. The first is: How does 
Secretary Gates reconcile his position on the next-generation 
bomber with prior statements he recently made on the military 
need to continue that program? Just a few months ago, he wrote 
in the Foreign Affairs journal that the U.S. ability to strike 
from over the horizon will be at a premium in future conflicts 
and will ``require shifts from short-range to long-range 
systems, such as the next-generation bomber.'' He made 
virtually the same statement during a speech at the National 
Defense University, and also in the first-quarter edition of 
the Joint Force Quarterly.
    Also, as Secretary Gates urged on April 6, there must be a 
``better understanding of the need, the requirement, and the 
technology.'' The original decision to pursue a next-generation 
bomber was already fully vetted in the 2006 QDR. Recognizing 
the importance of the evolving strategic requirement for global 
strike aircraft based outside the theater, the QDR directed the 
U.S. Air Force to field a follow-on to the B-2 by 2018. Until 
the 2009 QDR is completed sometime this summer and released 
next year, the 2006 document is the only framework we have for 
judging how well the military's air-power capabilities meet 
national requirements.
    Moreover, Secretary Gates' current position on the next-
generation bomber appears undermined by recent statements from 
several currently-serving combatant commanders, provided in 
response to questions from me, to the effect that it is 
important to continue developing that program.
    Finally, Secretary Gates' proposal to base decisions on our 
current strategic and nuclear-force structure, including the 
next-generation bomber and post-START arms-control talks, 
appears problematic. While seemingly reasonable on its face, 
waiting until a new START is negotiated and ratified by the 
Senate could literally take years. Appearing before the 
Carnegie Endowment for International Peace last fall, Secretary 
Gates himself expressed concern about how long the original 
START negotiations took and what that meant for the follow-on 
START about to be negotiated. The lead START negotiator, 
likewise, indicated recently that the follow-on treaty could 
already be slipping to the right.
    Related to my concern on whether Secretary Gates' plan on 
air-power modernization may be unbalanced in favor of short-
term fighters versus long-range strike aircraft are questions I 
have on his proposal on the F-35 Lightning II Joint Strike 
Fighter (JSF). Under his plans, Secretary Gates is recommending 
going from the 14 aircraft bought in fiscal year 2009 to 30 in 
fiscal year 2010, with corresponding funding increases from 
$6.8 billion to $11.2 billion. The Secretary's proposed 
commitment to JSF also requires us to confront serious 
questions about that aircraft's high cost and affordability. 
The F-35 variants for the Navy, Marine Corps, and Air Force 
will cost more to procure than the older tactical aircraft each 
Service is to replace, and the costs of the F-35 program have 
increased 47 percent since 2001, from $65 million to $105 
million per aircraft.
    To sum up, in terms of military aviation, I, as I'm sure 
other members of this subcommittee and the public, have serious 
questions about whether we are effectively institutionalizing 
and enhancing our capabilities to fight the wars we are in 
today and to address the scenarios we are most likely to face 
in the future, while hedging against other risks and 
contingencies.
    Mr. Chairman, I look forward to hearing from our witnesses 
today and look forward to the opportunity to ask some 
questions.
    Thank you.
    Senator Lieberman. Thank you, Senator Thune, for that very 
thoughtful opening statement. I think you framed the questions 
very well.
    Again, thanks to the witnesses. As is the custom of the 
committee, we're going to start with the more-or-less inside 
witness, Mr. Bolkcom, a specialist in military aviation at the 
Congressional Research Service (CRS), where he conducts 
nonpartisan, objective research and analysis for Congress. 
Thanks for the work you've done, and we look forward to your 
testimony now.

   STATEMENT OF CHRISTOPHER BOLKCOM, SPECIALIST IN MILITARY 
            AVIATION, CONGRESSIONAL RESEARCH SERVICE

    Mr. Bolkcom. Thank you, sir.
    Chairman Lieberman, Senator Thune, and distinguished 
members of the subcommittee, thanks for inviting me to speak 
with you today about military aviation. As requested, I'll 
address DOD's current and projected aviation capabilities and 
if they'll ensure that U.S. needs are met.
    The only effective way to judge military aviation is in the 
context of strategy. What do we want our aviation forces to do? 
As you mentioned, sir, on April 6 Secretary Gates stated that 
he believes that DOD needs to rebalance its spending to make 
military forces more effective against what he calls ``hybrid 
warfare,'' a simultaneous spectrum of conventional and 
irregular conflict. Fighting terrorists, insurgents, and other 
nonstate actors is challenging, and increasing our competence 
against threats suggests new tactics and, potentially, new 
weapons systems. These weapons systems, in many cases, would 
have different capabilities than today's weapons, and their 
distinguishing characteristic may be an emphasis on simplicity 
and low cost.
    Some fear that rebalancing the force toward irregular 
warfare will mean reducing DOD's most capable weapon systems, 
making us vulnerable to our most proficient adversaries. These 
same observers fear that DOD is too focused on the current war 
and not sufficiently mindful of the need to sustain 
capabilities such as achieving air dominance against modern air 
forces. Others embrace Secretary Gates's proposal. They note 
that our air forces have dominated every conventional foe that 
they've faced over the past 25 years, but have struggled with 
irregular warfare. Some argue that the country can't afford 
weapon systems we don't need and that our warfighters deserve 
weapon systems optimized to the threat that they face.
    As a rough blueprint, Secretary Gates suggested that 10 
percent of overall defense spending would focus on irregular 
warfare, 50 percent on state-on-state conflict, and 40 percent 
on what he called ``dual-purpose forces.'' If one were to 
rebalance aviation forces, it appears that a different spending 
ratio may be in order.
    Few aviation assets appear to be unique to irregular 
warfare. Very small or nonlethal weapons are perhaps more 
germane to irregular than state-on-state conflict. Another 
example might be an off-the-shelf lightly-armed turboprop 
aircraft. Also, investing in Special Operations forces that 
train and advise allied nations on how to better use their air 
forces against insurgents is another option.
    Boosting irregular capabilities might require 10 percent of 
aviation spending. Similarly, there appear to be few aviation 
assets unique to state-on-state conflict, and our air power 
might be rebalanced by spending 10 percent of the aviation 
budget on these assets. Delivering nuclear weapons, prevailing 
in aerial combat, and defeating advanced air defenses are 
clearly relevant to state-on-state conflict, but have little, 
if any, application to irregular warfare.
    It would appear feasible to reduce aviation forces unique 
to these missions if they were found to be in excess of force 
levels dictated by the QDR and other strategy guidance. Savings 
from these reductions could be invested in dual-purpose or 
counterinsurgency aviation.
    Most aviation assets are dual-purpose, and these assets 
might consume up to 80 percent of aviation spending. Precision 
strike, close air support (CAS), ISR, and airlift are examples 
of missions germane to both conventional and irregular warfare.
    A review of recent experience in Iraq and Afghanistan shows 
that commanders in the field have successfully adapted aircraft 
designed for state-on-state conflict to the counterinsurgency 
mission.
    In conclusion, it appears that the upcoming QDR and 
attendant congressional oversight offer an opportunity to 
ground our battlefield commanders' adaptations in a coherent 
strategy. By considering the projected threat environment and 
matching air-power capabilities to national goals, a strategy-
driven process should yield aviation forces that are both 
effective and cost-effective.
    Mr. Chairman, this concludes my remarks. It's been a 
pleasure to speak with you today. Thank you.
    [The prepared statement of Mr. Bolkcom follows:]
               Prepared Statement by Christopher Bolkcom
    Mr. Chairman, distinguished members of the subcommittee, thank you 
for inviting me to speak with you today about military aviation. As 
requested, I will address the Department of Defense's (DOD) current and 
projected aviation capabilities and whether they will ensure that U.S. 
needs are met.
                              introduction
    As a rule, aviation forces are procured and operated as part of a 
strategy. Military aircraft are just some of the means, or resources 
which DOD employs to achieve its goals. When policymakers ask questions 
such as:

        <bullet> Should we buy more bombers?
        <bullet> Is there a fighter gap?
        <bullet> Is DOD aggressive enough in fielding unmanned aerial 
        vehicles (UAVs)?
        <bullet> Do we have sufficient long-range cargo and aerial 
        refueling capability?

the answers should depend entirely on what specific needs military 
aviation is projected to meet.
    Today, these needs are expressed in the 2006 Quadrennial Defense 
Review (QDR). Until the 2009 QDR is completed sometime this summer, the 
2006 document (and associated strategy guidance) is the only framework 
for judging how well DOD's airpower capabilities meet national 
requirements. Yet it appears foolish to use the 2006 QDR as a rigid 
template, because the 2009 QDR could include new or different national 
objectives which would strongly influence military aviation. For 
example, one potential change in the 2009 QDR that could strongly 
affect judgments on airpower capabilities is the elimination of the 
longstanding requirement to successfully fight two simultaneous or 
nearly simultaneous major theater wars.\1\ This requirement predates 
the QDR process, has been included in every QDR, and has a profound 
impact on military aviation force structure.\2\
---------------------------------------------------------------------------
    \1\ Thom Shanker. ``Pentagon Rethinking Old Doctrine on 2 Wars.'' 
New York Times. March 15, 2009.
    \2\ In 1993, in the aftermath of the fall of the Soviet Union, 
Secretary of Defense Les Aspin conducted his ``Bottom-Up Review'' of 
defense capabilities and found that although the threat from the Soviet 
Union had largely abated, the United States still faced noteworthy 
military challenges. Among other requirements, the Bottom-Up Review 
concluded that DOD must be prepared to defend its Persian Gulf allies 
without diminishing its ability to also defend South Korea from a North 
Korean attack. When first recommended, the need to prepare for two 
simultaneous major theater wars was criticized by many as overly 
ambitious and unrealistic. (Andrew Krepinevich. ``Assessing the Bottom-
Up Review.'' Joint Forces Quarterly. Winter 93-94.) Others believed the 
two-MTW objective was a rear-guard action to preserve military force 
structure at a time when much of the country wished to reduce military 
spending to achieve a ``peace dividend.'' (``Financial Realities Drive 
Aerospace Consolidation.'' Aviation Week & Space Technology. May 1, 
1995.)
---------------------------------------------------------------------------
    It is difficult, and perhaps not particularly useful to try to 
predict all of the 2009 QDR's potential findings. One overarching 
trend, however appears to run through a number of high-level DOD 
studies and planning documents, and appears highly useful to informing 
assessments of DOD's airpower portfolio; namely, the need to rebalance 
military acquisition plans to field forces that are as capable against 
non-state actors, as they are against conventional foes.
    In the spring of 2004, DOD's Strategic Planning Guidance found that 
the United States is well positioned to deal with a conventional 
military adversary. Increasingly, however, the United States may find 
itself facing nonconventional foes, for which it is not well 
prepared.\3\
---------------------------------------------------------------------------
    \3\ ``Building Top-Level Capabilities: A Framework for Strategic 
Thinking.'' Briefing to Senior Level Review Group. August 19, 2004.
---------------------------------------------------------------------------
    The 2006 QDR picked up on this theme. As depicted in Figure 1, 
below, the 2006 QDR noted that ``the Department is shifting its 
portfolio of capabilities to address irregular, catastrophic and 
disruptive challenges while sustaining capabilities to address 
traditional challenges.'' \4\
---------------------------------------------------------------------------
    \4\ 2006 QDR, p. 19.
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    In a press conference detailing DOD's key recommendations to the 
White House on the proposed Fiscal Year 2010 Defense Budget, both 
Secretary of Defense Robert Gates and Vice Chairman of the Joint Chiefs 
of Staff Gen. James Cartwright emphasized the concept of ``hybrid'' 
warfare, a mixture of both high-end state-on-state conflict, and 
irregular warfare.\5\ DOD's leaders made it clear that they didn't 
think in terms of fighting either conventional or irregular warfare but 
in terms of addressing a spectrum of simultaneous conflict. Secretary 
Gates estimated (admittedly crudely) that up to 40 percent of DOD's 
budget would be spent on military forces that are equally pertinent to 
irregular and conventional warfare--``dual purpose'' capabilities in 
his words. Secretary Gates' and General Cartwright's comments appear to 
be completely consistent with the 2006 QDR's findings that DOD must be 
positioned to address an increasingly broad array of military 
challenges, many of them outside the realm of classic state-on-state 
conflict. It is within this context--the balancing of military aviation 
to effectively address ``hybrid warfare''--that DOD airpower can be 
most effectively assessed.
---------------------------------------------------------------------------
    \5\ ``DOD News Briefing With Secretary Gates From The Pentagon.'' 
News Transcript. Office of the Assistant Secretary of Defense (Public 
Affairs). April 6, 2009.
---------------------------------------------------------------------------
           the challenges of irregular, non-state actors \6\
---------------------------------------------------------------------------
    \6\ ``Non-state actors'' is an umbrella term that refers to a 
number of armed groups such as political terrorists, narco-traffickers, 
paramilitary insurgents, and even international organized criminal 
organizations. These terms are not mutually exclusive. Paramilitary 
groups can, for example, engage in narco-trafficking, terrorism, and 
crime. For example: ``International terrorism is known to be linked 
closely with the drug trade and criminal organizations. . .'' (Lt. Gen. 
Gennadiy M. Yevstafyev. ``Unmanned Aerial Vehicles in Classic and 
Terrorist Wars.'' Moscow Yadernyy Kontrol. July 5, 2004. pp. 77-82.)
---------------------------------------------------------------------------
    Combating non-state actors presents a broad array of challenges to 
U.S. military forces. Planners tend to readily grasp the obvious 
operational challenges, but shouldn't overlook the need to re-vamp both 
tactics and doctrine, and while also being aware of the costs involved.
Operational Challenges
    Military planners have a number of tools at their disposal to 
attempt to find, identify, track, capture, or kill terrorists, 
insurgents and other non-state actors. A survey of counterinsurgency 
and anti-terrorism efforts indicates that in general, military aviation 
plays a prominent role in performing these tasks. Airpower has proven 
very valuable in contemporary (e.g., Iraq, Afghanistan, Philippines) 
and historical (e.g., El Salvador) counterinsurgencies. The most 
critical missions appear to be persistent surveillance and 
reconnaissance, aerial insertion of troops, close air support, combat 
search and rescue, medical evacuation, and tactical airlift and 
resupply.\7\
---------------------------------------------------------------------------
    \7\ A more complete treatment of this topic can be found in CRS 
Report RL32737.
---------------------------------------------------------------------------
    Achieving air superiority and attacking military targets on the 
ground--missions at which today's aviation forces excel--are also 
important to counterinsurgency and other non-state actor operations. 
These missions don't however, typically require the high performance 
characteristics of the combat aircraft that DOD is currently procuring 
and developing. Non-state actors do not have the resources to 
effectively challenge even modest air forces. Thus, aircraft best 
suited to addressing irregular warfare may emphasize long endurance, 
slower speeds, and may often, if not typically, be unmanned.
    Compared to the armed forces of a nation state, non-state actors 
are relatively easy to defeat in direct combat. Non-state actors 
typically lack the equipment, training and discipline that define a 
state-based military force. Actually engaging in direct combat with 
non-state actors is, however, the core operational challenge. Non-state 
actors typically don't wear uniforms. Indeed, they generally strive to 
integrate themselves into the local civilian population. Thus, target 
identification is very challenging. Non-state actors rarely mass into 
easily recognizable formations. They typically lack large 
infrastructure or obvious logistics processes. Therefore, non-state 
actors present few ``high value'' targets for U.S. forces. This 
challenge has not been lost on DOD leadership. For example a former 
Commander of Air Force Special Operations notes:

          For many years, though, there's been a concern that 
        intelligence collection capability basically rested in the 
        ability to find a tank or an artillery piece hiding in a grove 
        of trees. The problem now becomes how to find individuals 
        hiding in groups of people. . . This presents a huge problem 
        for us.\8\
---------------------------------------------------------------------------
    \8\ Lt. Gen. Michael W. Wooley, Commander, Air Force Special 
Operations Command. ``Application of Special Operations Forces in the 
Global War on Terror.'' Air & Space Conference 2004. Washington, DC. 
September 14, 2004.

    The leadership and structure of many non-state organizations are 
opaque. Such organizations might be diffuse and operate over long 
distances. Al Qaeda, for example, often operates through partner 
organizations which might be small and have fluid leadership. One DOD 
leader has said ``When we kill or capture one of these leaders, another 
one steps in and quickly takes their place.''\9\
---------------------------------------------------------------------------
    \9\ Ibid.
---------------------------------------------------------------------------
    Once identified, non-state actors are often difficult to engage due 
to concerns over collateral damage. Even conventional state-on-state 
conflict presents collateral damage concerns. When one party is 
actively trying to shield itself behind noncombatants, however, 
delivering weapons with extreme precision and minimum effects takes on 
increased importance. A RAND study summed up the operational 
challenges:

          . . . ferreting out individuals or small groups of 
        terrorists, positively identifying them, and engaging them 
        without harming nearby civilians is an extremely demanding 
        task. Substantial improvements will be needed in several areas 
        before the Air Force can be confident of being able to provide 
        this capability to combatant commanders.\10\
---------------------------------------------------------------------------
    \10\ David Ochmanek. ``Military Operations Against Terrorist Groups 
Abroad.'' RAND. 2003.
---------------------------------------------------------------------------
Mindset Challenges
    Successfully combating non-state actors and irregular warfare will 
likely require different training, tactics, doctrine, political 
strategies, and potentially rules of engagement, than are optimal for 
conventional military warfare. Collectively, these changes may combine 
to require a different politico-military mindset for senior 
decisionmakers.
    The U.S. military, policymakers and the general population, desire 
short conflicts, with clear success criteria, exit strategies, and 
decisive victories. In a conventional setting, ``victory'' typically 
entails an adversary's unconditional surrender. But non-state actors 
may define victory as not losing; their continued existence is a 
victory. This mindset characterizes several Palestinian terrorist 
groups that fought Israel's occupation of Palestinian territories. In 
most cases, they themselves cannot achieve rapid, decisive victory, so 
they follow a strategy of protracted war. According to one scholar ``. 
. . insurgent, terrorist and criminal organizations consciously design 
themselves so that our military and police forces cannot rapidly and 
decisively defeat them.'' \11\ Others note that ``even dying for their 
cause intentionally or voluntarily is perceived as a victory (for 
terrorists). It's a different paradigm than the traditional military 
concern for limiting casualties.'' \12\ This is characteristic of 
groups such as Hamas and al Qaeda that employ suicide tactics.
---------------------------------------------------------------------------
    \11\ Thomas R. Searle. ``Making Airpower Effective against 
Guerrillas.'' Air & Space Power Journal. Fall 2004.
    \12\ Wooley. Op. cit.
---------------------------------------------------------------------------
    In a conventional warfare setting, state-based armed forces guided 
by the laws of war typically attempt to avoid civilians or shield them 
from the war's consequences. When combating non-state actors, however, 
civilians may need to be engaged at an unprecedented level. Winning the 
``hearts and minds'' of the local population, or at least not 
alienating them could become a large part of the overall counter 
insurgent, or counter terrorist strategy.
    Terrorists and insurgents require at least tacit, if not active, 
support from the local population to operate effectively. In the words 
of one British general responsible for counterinsurgency operations 
``The shooting side of the business is only 25 percent of the trouble. 
The other 75 percent is getting the people of this country behind us.'' 
\13\ However, the military activities at which today's Armed Forces 
excel, such as precisely destroying buildings or vehicles, may work 
counter to this ``hearts and minds'' strategy. According to one study 
``counter terrorist military attacks against elusive terrorists may 
serve only to radicalize large sectors of the (Muslim) population and 
damage the U.S. image worldwide.'' \14\
---------------------------------------------------------------------------
    \13\ Lt. Gen. Sir Gerald Templer, the British High Commissioner to 
Malaya. As cited in David Ochmanek. ``Military Operations Against 
Terrorist Groups Abroad.'' RAND. Santa Monica, CA. 2003.
    \14\ The Sociology and Psychology of Terrorism: Who Becomes a 
Terrorist and Why? A Report Prepared under an Interagency Agreement by 
the Federal Research Division, Library of Congress. September 1999. 
P.68.
---------------------------------------------------------------------------
Cost Challenges
    Almost by definition, non-state actors employ weapons and methods 
that are inexpensive, when compared to training, equipping and 
employing a military force. However, the cost to defend against non-
state actors, or to combat them, can be high. For example, terrorists 
can acquire manportable, air defense systems (MANPADS) for as little as 
$5,000. If a terrorist succeeded in shooting down a commercial airliner 
with this shoulder-fired missile, the immediate cost of losing the 
airplane would be over $100 million, and the indirect costs much 
higher. Further, fielding technologies on commercial aircraft to defend 
against this threat could cost the United States $10 billion in 
acquisition costs alone.\15\ The ``cost-exchange ratio'' of fighting 
non-state actors is not in the United States' favor.
---------------------------------------------------------------------------
    \15\ A more complete treatment of this topic can be found in CRS 
Report RL31741.
---------------------------------------------------------------------------
                            a balancing act
    There is a strong consensus in defense circles that airpower is one 
of the United States' great military advantages. As mentioned earlier 
in this testimony, however, many observers are increasingly concerned 
that military aviation is focused too much on the demands of fighting 
conventional foes to the detriment of irregular warfare, and that ``the 
challenge for the Air Force is to re-shape its forces to increase their 
relevance in small wars, while maintaining the capability to win major 
conflicts.'' \16\ In other words, in this view, a balance must be 
struck.
---------------------------------------------------------------------------
    \16\ Thomas McCarthy. National Security for the 21st Century: The 
Air Force and Foreign Internal Defense. School of Advanced Air and 
Space Studies. Air University. Maxwell Air Force Base, AL. June 2004. 
p.67. And Thomas R. Searle. ``Making Airpower Effective against 
Guerrillas.'' Air & Space Power Journal. Fall 2004.
---------------------------------------------------------------------------
Arguments for maintaining the current focus
    Supporters of DOD's current modernization plans--which largely 
reflect forces required for state-on-state conflict--say that the F-22, 
Joint Strike Fighter, F/A-18E/F, and other ``high-end'' platforms are 
still required for state-on-state conflict, despite U.S. preeminence in 
this area, and that new concepts of operation, new organizational 
schema, or technology upgrades may increase these systems' 
applicability to counterinsurgency and irregular warfare challenges. 
Those who support DOD's current aviation modernization plans could 
argue that fluid threat environments are nothing new. Platforms with 
long development timelines and long operational lives often must be 
modified and used differently than originally intentioned so as to keep 
pace with new threats and military objectives. It is much more 
difficult, to take the opposite approach, they could argue. From their 
perspective, DOD can't develop technologically less sophisticated 
weapons systems to address unconventional threats, and then improve 
these systems in the future if more high tech threats arise.
    While ``low-tech'' insurgents and other non-state actors appear to 
deserve more attention than in the past, the United States shouldn't 
slight its traditional military strengths, ``conventional'' aviation 
supporters argue. DOD has evolved from a ``threat-based'' to a 
``capabilities-based'' planning framework. Threats can change, but the 
military capabilities the Nation desires, tend to have a longer life-
span. The ability to achieve air dominance is a key military capability 
the U.S. must maintain, supporters of DOD's current aviation plans say, 
and the U.S. must be capable of conducting this mission in the most 
stressing scenarios; such as a potential conflict with China, for 
example. By preparing for the most stressing case, in this view, the 
U.S. can more than satisfy lesser included cases, such as air dominance 
missions against non-state actors.
    Russian SA-10, SA-12, and SA-20 surface-to-air missiles (SAMs) 
(also called ``double digit'' SAMs) are a concern for military planners 
due to their mobility, long range, high altitude, advanced missile 
guidance, and sensitive radars. The Russian SA-20 has been likened to 
the U.S. Patriot PAC-2 missile, but with an even longer range, and a 
radar that is very effective in detecting stealthy aircraft. Military 
planners are concerned that a country with only a handful of these SAMs 
could effectively challenge U.S. military air operations by threatening 
aircraft and disrupting operations from great distances. The transfer 
of such weapons to countries such as Iran, are particularly 
worrisome.\17\
---------------------------------------------------------------------------
    \17\ David A. Fulghum. ``Russia Sells SA-20 to Iran.'' Aviation 
Week & Space Technology. December 15, 2008.
---------------------------------------------------------------------------
    A variety of new technologies and military systems could exacerbate 
the ``double-digit'' SAM challenge. First, commercial information and 
communications technologies are enabling adversaries to better network 
the elements of their air defense systems. This allows them to disperse 
radars, SAM launchers and other associated platforms throughout the 
battlespace, and to share targeting information among launchers. This, 
in turn, suggests that radars may be used less frequently and for 
shorter periods of time, complicating efforts to avoid or suppress 
them. Second, terminal defenses are being marketed by a number of 
international defense companies. These radar-guided Gatling guns are 
designed to protect ``double-digit'' SAMs or other high value air 
defense assets. These systems could prove quite effective in shooting 
down missiles aimed at enemy air defenses. Third, Russia and other 
countries have developed and are selling Global Positioning System 
(GPS) jammers. Over varying distances, these low-watt jammers may 
degrade the GPS guidance signals used by many U.S. precision-guided 
munitions (PGMs) to augment inertial guidance systems, reducing their 
accuracy.
    If these double-digit SAMs are protected by an enemy air force 
equipped with advanced Russian or European combat aircraft, the 
military problem becomes dire, say supporters of DOD tactical aviation. 
According to press reports, a joint U.S.-Indian Air Force exercise, 
called Cope India, illustrates that pilots from non-NATO countries can 
receive excellent training and execute advanced air combat tactics. 
When flying advanced combat aircraft such as the Russian-designed SU-
30, such well trained pilots could effectively challenge U.S. Air 
Forces, some say.
Arguments for Rebalancing
    Most would agree that DOD still requires advanced aircraft to deter 
and fight tomorrow's potential conventional conflicts. However, many 
argue that the efforts and resources expended to develop and produce 
these aircraft are not balanced with current and foreseeable 
conventional military challenges. The ability to achieve air dominance 
is a key capability that DOD must sustain, but against whom? Air 
dominance was achieved in about 15 minutes over Afghanistan and Iraq, 
some say, and, for the most part, with aircraft designed 30 years ago 
(e.g., F-15s, F-16s, F/A-18s).
    The stressing air dominance scenario described above may require 
some of the aircraft currently being developed by DOD. However, how 
many of these scenarios might realistically emerge in the future? Many 
would agree that a potential conflict with China could be one such 
challenge, but other credible examples are very difficult to imagine. 
Those who seek a rebalancing of military aviation argue that the 
proliferation of advanced SAMs has not occurred, and will likely not 
occur in the future, at the rate predicted by DOD.
    Despite being on the market for over 25 years, Russia reportedly 
has only managed to transfer double-digit SAMs to six countries 
(Bulgaria, China, Czech Republic, Germany, Greece and Kazakhstan), 
three of which were Soviet client states at the time of the sale. 
Further, rebalancing advocates would argue, Russia has been threatening 
to sell double-digit SAMs to Iran since the early 1990s, in part, to 
increase its leverage vis-a-vis the United States in the region. No 
deliveries have yet been reported in the open press, and in April 2009, 
senior Russian defense officials stated that Russia has not delivered 
SA-20s to Tehran.\18\
---------------------------------------------------------------------------
    \18\ ``No S-300 Delivery To Iran'' Moscow Times (as reported by the 
Associated Press). April 16, 2009.
---------------------------------------------------------------------------
    While these weapons are clearly dangerous, they are also expensive, 
and require extensive training to operate effectively. This has 
arguably slowed the proliferation of these systems, and may also do so 
in the future. Russia reportedly attempted but failed to sell SA-10 and 
SA-12 SAMs to Chile, Egypt, Hungary, Iran, Kuwait, Serbia, South Korea, 
Syria, and Turkey. These countries have opted instead to purchase 
either U.S. SAMs, or more modest air defense systems. According to one 
well-known missile analyst

          Russia has traditionally played a significant role in 
        worldwide SAM export. But Russian SAM sales have taken a nose 
        dive since their heyday in the 1970s and 1980s. Particularly 
        disappointing has been the very small scale of sales of the 
        expensive high altitude systems like the S-300P and S-300V. The 
        Russian industries had expected to sell 11 S-300P batteries in 
        1996-1997, when in fact only about 3 were sold. Aside from 
        these very modest sales to China and Greece, few other sales 
        have materialized. Combined with the almost complete collapse 
        of Russian defense procurement, the firms developing these 
        systems have been on the brink of bankruptcy in recent 
        years.\19\
---------------------------------------------------------------------------
    \19\ Steven Zaloga. World Missile Briefing. Teal Group. Inc. 
Fairfax, VA. February 2008.

    Those who wish to rebalance military aviation also argue that the 
proliferation of, and threat from advanced combat aircraft is also 
overstated. Building, operating, and maintaining a modern air force is 
much more expensive and resource intensive than fielding advanced SAMs. 
Few countries have the resources and national will to develop and 
maintain an air force that could challenge U.S. airpower, they argue. 
Some say that advanced Russian and European aircraft being developed 
and fielded today may compare well to 30-year old U.S. combat aircraft, 
on a one-to-one basis. But aircraft don't fight on a one-to-one basis. 
Instead, they are part of a much larger airpower system. This system is 
composed, for example, of combat, intelligence, surveillance, airborne 
warning and control, aerial refueling, electronic warfare, and mission 
control assets. The importance of well trained pilots and maintenance 
personnel, which take considerable time and resources to create, cannot 
be over emphasized.
    No other country has an airpower system on par with the United 
States, nor is one predicted to emerge.\20\ Therefore, some argue, 
today's DOD's tactical aviation programs can be safely reduced in order 
to free up funds to address other military challenges, and thus bring 
scarce resources more into balance. The resources saved from these cuts 
to DOD's most advanced aviation programs could be used to invest in 
capabilities more applicable to combating terrorists and insurgents, or 
to conduct homeland defense.
---------------------------------------------------------------------------
    \20\ In an April 7, 2009, press conference, Secretary Gates 
estimated that ``the intelligence that I've gotten indicates that the 
first IOC for anything like a fifth-generation fighter in Russia would 
be about 2016, and in China would be about 2020.'' CRS has conducted 
numerous studies on the implications of advanced Russian and Chinese 
fighter aircraft for U.S. forces. See, for example, CRS Report RL30700 
for a more comprehensive treatment of this topic.
---------------------------------------------------------------------------
          conclusion: what might a rebalanced force look like?
    Given the challenges of combating non-state actors, and if it were 
agreed that aviation forces should be rebalanced toward irregular 
warfare, what capabilities might such a force posses? As a rough 
blueprint, Secretary Gates suggested that 10 percent of defense 
spending would focus on military forces devoted exclusively to 
irregular warfare, 50 percent of the budget on forces focused on 
conventional warfare, and 40 percent on ``dual capable'' forces.
    In the case of aviation forces, the ratio of capabilities in each 
warfare domain might be different than Secretary Gates' suggested 10-
50-40 construct. Owing to their inherent flexibility, and the growing 
relative importance of sensors, communications and targeting technology 
vis-a-vis aeronautical performance, military aircraft can be 
effectively used in a number of different roles. Only the most 
specialized aviation assets are likely to be unique to a warfighting 
domain, and therefore, a more balanced spending on aviation forces may 
look more like the classic bell curve depicted in Figure 2 below, with 
aviation forces spending apportioned in a 10-80-10 percent ratio.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Uniquely irregular
    A brief review of the use of military aviation against non-state 
actors suggests that there are few platforms, weapons, or processes 
unique to irregular warfare. Very small munitions that minimize the 
chance of collateral damage would arguably be more pertinent to 
irregular than conventional warfare. Another example would be an off-
the-shelf, lightly armed turbo-prop aircraft for attacking non-state 
actors. Such an aircraft is now being studied by the Air Force's Air 
Combat Command.\21\ Reducing the number of advanced combat aircraft in 
the Service's inventories and replacing them with some number of these 
much less expensive aircraft or with armed UAVs could garner 
considerable life cycle cost savings.
---------------------------------------------------------------------------
    \21\ Marcus Weisgerber. ``Air Force Funds Study to Determine Light-
Attack Plane Requirement.'' Inside the Air Force. April 3, 2009.
---------------------------------------------------------------------------
    Perhaps the aviation capability most obviously peculiar to 
irregular warfare is an advisory one: the mission of training and 
counseling allied and partner nations in the employment of their 
airpower against insurgents and non-state actors. This mission, called 
Aviation-Foreign Internal Defense (A-FID) is performed by a single 
squadron in the Air Force Special Operations Command (the 6th Special 
Operations Squadron). According to one expert, ``One of the most 
important roles that U.S. forces can play in the fight against 
terrorist groups is to train, advise, and assist the forces of other 
nations in counterinsurgency and counterterrorist operations.'' \22\ 
Yet, the 6th Special Operations Squadron is composed of approximately 
125 personnel and operates on an annual budget ranging between $2 
million and $5 million. Rebalancing DOD aviation capabilities toward a 
more robust counter insurgency role may entail expanding and 
strengthening DOD's A-FID capabilities.
---------------------------------------------------------------------------
    \22\ Ochmanek. Op Cit.
---------------------------------------------------------------------------
Uniquely conventional
    There also appear to be few aviation resources unique to 
conventional, state-on-state conflict. Delivering nuclear weapons, 
penetrating and defeating advanced air defenses, and defeating modern 
air forces are missions clearly germane to state-on-state conflict. It 
would appear feasible to reduce the aviation forces unique to these 
missions if they were found to be in excess of force levels dictated by 
the QDR and other strategy guidance, and invest the savings in dual 
purpose assets or assets optimized for irregular warfare.
Dual Purpose
    Most aviation missions that apply to irregular warfare also apply 
to state-on-state warfare: close air support, precision strike, 
intelligence, surveillance, and reconnaissance, medical evacuation, 
stealthy insertion of troops, just to mention a few. For some missions, 
the requirements for irregular warfare are more taxing than the 
requirements for state-on-state conflict, and these requirements will 
set the standard for aviation capabilities. In other instances, the 
mission requirements for conventional warfare will be the most taxing. 
A review of recent experience in Iraq and Afghanistan indicates that 
commanders in the field have been successfully adapting and employing 
weapon systems designed for state-on-state conflict in their fight 
against insurgents and other non-state actors. For example, large, 
``strategic'' bombers have conducted close air support missions. 
Electronic warfare aircraft such as the EA-6B Prowler and the EC-130 
Compass Call have been used to detect and jam improvised explosive 
devices. Air superiority fighters, having no enemy to fight, have been 
used as mini-Airborne Warning and Control Systems, providing real-time 
coordination and assembly of strike packages to attack time-sensitive 
targets.\23\
---------------------------------------------------------------------------
    \23\ CRS interviews with Air Force pilots deployed to Iraq. March 
2009.
---------------------------------------------------------------------------
    In conclusion, it appears that an opportunity exists today, through 
the upcoming QDR and concomitant congressional oversight, to ground 
battlefield innovation, such as described above, in strategy. This 
process is designed to match airpower capabilities to meet national 
goals in the projected threat environment, and field an aviation force 
structure that is both effective and cost-effective.
    Mr. Chairman, that concludes my remarks. It's been my pleasure to 
address you today. I look forward to any questions you may have.

    Senator Lieberman. Thanks, Mr. Bolkcom. That's a good 
beginning.
    Now we'll turn to General Richard Hawley, retired from the 
U.S. Air Force after serving as commander of the Air Combat 
Command. Since retirement, General Hawley has served in a 
variety of advisory capacities, including his work in support 
of the 2006 QDR.
    General, thanks for being here. We look forward to your 
testimony now.

   STATEMENT OF GEN. RICHARD E. HAWLEY, USAF (RET.), FORMER 
            COMMANDER, AIR FORCE AIR COMBAT COMMAND

    General Hawley. Mr. Chairman, members of the subcommittee, 
it's my pleasure to be here, and I look forward to this 
discussion of the future roles, missions, and capabilities of 
U.S. military air power.
    By way of introduction, I am a graduate of the United 
States Air Force Academy and Georgetown University. I served on 
Active Duty for 35 years, retiring in 1999, as you mentioned, 
as commander of Air Combat Command in Hampton, VA. My combat 
experience is as a forward air controller for the 4th Infantry 
Division in Vietnam, where I learned something about the 
application of air power in irregular warfare. I've accumulated 
about 1,000 hours in a multi-role, multi-service F-4 Phantom 
II, and a like number of hours in the single-service, single-
mission F-15 air superiority fighter, where I learned something 
of those competing concepts of fighter design and acquisition. 
I've also flown the A-10, C-130, C-141, C-17, B-52, B-1, and B-
2 as a pilot, and I've flown as an observer in most other Air 
Force airplanes.
    I served for 2 years as the Principal Deputy to the Under 
Secretary of the Air Force for Acquisition, and, as you 
mentioned, in 2005 as a member of the Defense Acquisition 
Performance Assessment Project and the DOD Red Team that 
supported the QDR.
    Since 1999, my perspective has been broadened through work 
as an independent consultant, mostly in support of the 
aerospace industry and U.S. Joint Forces Command as what they 
call a senior concept developer. So, I hope that my testimony 
can be helpful to the committee as you consider the President's 
proposed budget for 2010.
    In my mind, that budget seems to be more noteworthy for 
what it probably will not contain than for what it will. It 
will not propose funding, as you mentioned, for additional F-22 
air superiority fighters or C-17 strategic airlift aircraft, 
and it will not propose funding for development of new combat 
search-and-rescue or long-range strike capabilities. These 
omissions have major ramifications for the future of U.S. air 
power, and the first two will be irreversible. Therefore, I 
would like to focus these few comments on the proposal to end 
production of the F-22 and the C-17, and hope that your 
questions will allow me to address the other major issues.
    The Air Force is responsible for development of 
capabilities to gain and maintain air superiority over the 
battlefield and to provide strategic airlift capabilities that 
allow our Armed Forces to respond rapidly to global crises. To 
fulfill those responsibilities, the Air Force conducts rigorous 
analyses to determine the attributes of these aircraft. They 
will need to successfully accomplish their missions over their 
expected 30- to 40-year service lives.
    In the case of the F-22 and C-17, these analyses were 
presented to Congress, and, after long and thoughtful debate, 
Congress approved funding to develop and subsequently field 
these aircraft. Both are without peer in their respective 
mission areas, and are the envy of every air force in the world 
today.
    Having developed these capabilities, the Air Force is then 
charged with advising the Secretary of Defense and Congress on 
the number required to successfully support our National 
Security, National Defense, and National Military Strategies.
    The Air Force conducts an equally rigorous analysis to 
support its conclusions with regard to this important question. 
In doing so, it is guided by direction from the Secretary of 
Defense concerning the number and nature of the contingencies 
for which it must prepare forces for employment by the 
combatant commands. Although that guidance evolves as the 
threats to our Nation evolve, it has consistently required 
forces able to support more than one major regional contingency 
while still defending the Homeland and deterring other would-be 
aggressors.
    As a participant in those analyses regarding the F-22, I 
can assure you that the number required to conduct operations 
in two major regional contingencies against adversaries who are 
capable of contesting our control of the air is 381. That 
number is sufficient to equip 10 operational squadrons with 24 
aircraft each, along with the supporting training base, test 
aircraft, and some attrition reserves.
    Others in the Air Force and the Joint Staff have conducted 
mobility studies that set the number of C-17s required to 
support our defense strategy at 205. But, those studies did not 
consider the planned growth in the size of the United States 
Army and Marine Corps.
    To my knowledge, there is no analysis that would call into 
question these requirements for F-22 and C-17 aircraft, but the 
recommendation to the President and Congress is to close both 
production lines after building just 187 F-22s and 205 C-17s.
    The recommendation on the C-17 seems to be based on a dated 
analysis of the requirement, and for the F-22 on no analysis 
whatsoever. The F-22 recommendation rests on an assertion that 
we cannot afford to equip our airmen, on whom we rely to gain 
and maintain air superiority, with the best weapons that our 
defense industrial base has developed. Rather, we and they are 
asked to accept the risk of sending them into the fight with 
weapons designed for an entirely different mission. I find that 
logic suspect.
    Federal outlays in 2010 will be about $3.5 trillion, while 
keeping the F-22 and C-17 lines open, so that a closure 
decision could be informed by the QDR, and a review of our 
national security strategy, would cost less than $4 billion. In 
my view, these recommendations, if implemented, will preempt 
the full and open debate that should precede any major change 
to the force size and construct. A force of 187 F-22s may be 
sufficient for one major regional contingency where our control 
of the air is contested by a competent adversary, but there 
will be no reserve left to help deter an opportunistic 
aggressor elsewhere in the world. Should the President and 
Congress conclude that our forces should be sized to deal with 
only one contingency where our control of the air is contested, 
that will be an appropriate time to terminate production of the 
F-22. Until then, in my view, the actual requirement is for 381 
aircraft, not 187 or even 243.
    As to the C-17, I find it difficult to believe that the 
requirement can remain stagnant, even as the forces that must 
be deployed and sustained grow substantially in number.
    Thank you for this opportunity to share my views on these 
important issues, and I look forward to your questions.
    [The prepared statement of General Hawley follows:]
       Prepared Statement by Gen. Richard E. Hawley, USAF (Ret.)
    Mr. Chairman and members of the committee, thank you for this 
opportunity to discuss future roles, missions, and capabilities of U.S. 
military air power. By way of introduction, I am a graduate of the 
United States Air Force Academy and of Georgetown University. I served 
on active duty for 35 years, retiring in 1999 as Commander of Air 
Combat Command at Langley Air Force Base in Hampton, VA. My combat 
experience is as a forward air controller with the 4th Infantry 
Division in the central highlands of Vietnam, where I learned about the 
application of airpower in irregular warfare. I accumulated about 1,000 
hours in the multi-role, multi-service F-4 Phantom II, and a like 
number of hours in the single service, single mission F-15 air 
superiority fighter, so I understand the difference between those 
competing concepts of fighter design and acquisition. I have flown the 
A-10, C-130, C-141, C-17, B-52, B-1 and B-2 as a pilot, and as an 
observer in most other aircraft in the Air Force inventory.
    I served for 2 years as the principal deputy to the Under Secretary 
of the Air Force for Acquisition and in 2005 as a member of the Defense 
Acquisition Performance Assessment Project, studying the problems we 
face in that area. Also in 2005, I served as a member of a the 
Department of Defense Red Team supporting the last Quadrennial Defense 
Review (QDR). Since 1999 my perspective has been broadened through work 
as an independent consultant, mostly in support of the aerospace 
industry and U.S. Joint Forces Command as a Senior Concept Developer. I 
hope that my testimony can be helpful to the committee as you consider 
the President's proposed defense budget for 2010.
    For the subject of this hearing, that budget promises to be more 
noteworthy for what it will not contain than for what it does. It will 
not propose funding for additional production of F-22 air superiority 
fighters or C-17 strategic airlift aircraft, and it will not propose 
funding for development of new combat search and rescue or long range 
strike aircraft. These omissions have major ramifications for the 
future of U.S. airpower, and the first two will be irreversible. 
Therefore, I will focus these  opening  comments  on  the  proposal  to 
 end  production  of  the  F-22  and  the C-17, and hope that your 
questions will allow me to comment on the other issues.
    The Air Force is responsible for the development of capabilities to 
gain and maintain air superiority over the battlefield, and to provide 
strategic airlift capabilities that allow our armed forces to respond 
rapidly to global crises. To fulfill those responsibilities, the Air 
Force conducts rigorous analyses to determine the attributes these 
aircraft will need to successfully accomplish their missions over their 
expected 30- to 40-year service lives. In the case of the F-22 and C-
17, those analyses were presented to Congress and, after long and 
thoughtful debate, Congress approved funding to develop and 
subsequently field these aircraft. Both are without peer in their 
respective mission areas and are the envy of every Air Force in the 
world today.
    Having developed these capabilities, the Air Force is then charged 
with advising the Secretary of Defense and Congress on the number 
required to successfully support our National Security, National 
Defense, and National Military Strategies. The Air Force conducts an 
equally rigorous analysis to support its conclusions with regard to 
this important question. In doing so, it is guided by direction from 
the Secretary of Defense concerning the number and nature of the 
contingencies for which it must prepare forces for employment by the 
combatant commands. Although that guidance evolves as the threats to 
our Nation evolve, it has consistently required forces able to support 
more than one major regional contingency at a time while still 
defending the homeland and deterring other would be aggressors.
    As a participant in those analyses regarding the F-22, I can assure 
you that the number of F-22s required to conduct operations in two 
major regional contingencies, against adversaries who are capable of 
contesting our control of the air, is 381. That number is sufficient to 
equip ten operational squadrons with 24 aircraft each, along with the 
supporting training base, test aircraft and some attrition reserve. 
Others in the Air Force and the joint staff have conducted mobility 
studies that set the number of C-17s required to support our defense 
strategy at 205, but those studies did not consider the planned growth 
in the size of the United States Army and Marine Corps.
    To my knowledge, there is no analysis that would call into question 
these requirements for F-22 and C-17 aircraft, but the recommendation 
to the President and Congress is to close both production lines after 
building just 187 F-22s and 205 C-17s. The recommendation on the C-17 
seems to be based on a dated analysis of the requirement, and that for 
the F-22 on no analysis whatsoever. The F-22 recommendation rests on an 
assertion that we cannot afford to equip our airmen, on whom we rely to 
gain and maintain air superiority, with the best weapons that our 
defense industrial base has developed. Rather, we and they are asked to 
accept the risk of sending them into the fight with weapons designed 
for an entirely different mission.
    I find that logic to be suspect. Federal outlays in 2010 will be 
about $3.5 trillion, while keeping the F-22 and C-17 lines open, so a 
closure decision could be informed by the QDR and a review of our 
national security strategy, would cost less than $4 billion. In my 
view, these recommendations, if implemented, will preempt the full and 
open debate that should precede any major change to the force sizing 
construct. A force of 187 F-22s may be sufficient for 1 major regional 
contingency, but there will be no reserve left to help deter an 
opportunistic aggressor elsewhere in the world. Should the President 
and Congress conclude that our forces should be sized to deal with only 
one contingency where our control of the air is contested, that will be 
an appropriate time to terminate production of the F-22. Until then, 
the actual requirement is for 381 aircraft, not 187 or even 243. As to 
the C-17, I find it difficult to believe that the requirement can 
remain stagnant even as the forces that must be deployed and sustained 
grow substantially in number.
    Thank you for this opportunity to share my views on these important 
issues. I look forward to your questions.

    Senator Lieberman. Thank you, General. That's what, in our 
world, we tend to call straight talk. I appreciate it, and 
we'll have some good questions for you.
    Senator Bill Nelson has stopped by, which I appreciate. He 
is a member of the full committee, not a member of the 
subcommittee, but asked if he could make a statement and leave 
some questions. I'm happy to recognize you now.
    Senator Bill Nelson. I just have two questions, Mr. 
Chairman. I'll leave them with you, and I appreciate your doing 
this hearing.

 STATEMENT OF HON. BILL NELSON, U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

    Senator Bill Nelson. The bombers, long-range strike 
aircraft, fall within the jurisdiction of the Strategic Forces 
Subcommittee, which I have the privilege of chairing, and we're 
going to look at this issue of the next-generation bomber and 
Secretary Gates' decision to postpone or cancel the goal of a 
next-generation bomber by 2018. We're going to look at it in 
detail during the course of our Strategic Subcommittee 
hearings.
    So, thank you for letting me come, and thank you for 
letting me submit a couple of questions to you.
    Senator Lieberman. Thanks, Senator Nelson. I think you're 
technically right about the jurisdiction. Obviously, we may get 
into the bomber question here because of the expertise of the 
people who are before us.
    Let's turn now to Barry Watts, who's a senior fellow at the 
Center for Strategic and Budgetary Assessments (CSBA), and 
served in the United States Air Force and as Director of 
Program Analysis and Evaluation (PA&E) in the Office of the 
Secretary of Defense (OSD).
    Mr. Watts, thanks for bringing all your experience to the 
committee today.

    STATEMENT OF BARRY D. WATTS, SENIOR FELLOW, CENTER FOR 
              STRATEGIC AND BUDGETARY ASSESSMENTS

    Mr. Watts. Thank you very much, Mr. Chairman and members of 
the subcommittee.
    I'm going to focus my remarks on the subject that was just 
mentioned, the bomber issue. Perhaps it would be useful to 
begin with just a historical observation that speaks to 
context.
    When the first President Bush, in 1992, shortly after the 
end of the Cold War and the dissolution of the Soviet Union, 
made a decision to end B-2 production at 20 airplanes, as best 
I can understand the underlying rationale, it was looking at 
the platform strictly as a nuclear delivery system; and that's, 
indeed, what it and the B-1 and the B-52 had been designed 
primarily to do.
    The conventional utility of the platform, I don't believe, 
was really taken into account, and the jurisdictional division 
between the other subcommittee and this one emphasizes the 
degree to which bombers tend to fall, conceptually, between the 
cracks for us.
    The B-1, B-52, and B-2 have never dropped a nuclear weapon 
in anger, but they have been used in every war since Vietnam to 
deliver conventional munitions. As Senator Thune pointed out, 
starting in 1999, when we brought the JDAM onboard the B-2 and 
integrated it for the campaign against Serbia, adding 
conventional precision to those platforms, it increased their 
utility, in the long-term, significantly.
    Senator Lieberman. So, let me just clarify what you're 
saying. You're saying that the bombers don't have just 
strategic value to us, but conventional, as well.
    Mr. Watts. We've used them primarily in a conventional role 
even though the three that we still have in inventory were 
designed exclusively for nuclear roles.
    Senator Lieberman. Right.
    Mr. Watts. So, it's a very flexible platform. It has, if 
you will, dual utility. We seem to have trouble making 
decisions based on both ends of the spectrum, rather than just 
one or the other.
    Senator Lieberman. So, you're making a case that this 
subcommittee actually does have jurisdiction here.
    Mr. Watts. I think so, sir, yes. [Laughter.]
    You should.
    Senator Lieberman. Go right ahead.
    Senator Thune. I really like this witness, Mr. Chairman. 
[Laughter.]
    Senator Lieberman. Just based on what you said, maybe both 
subcommittees have jurisdiction. But, don't spend your time on 
that. Go right ahead with your statement.
    Mr. Watts. I was just going to go back to the decision to 
defer a next-generation bomber, and not just production, but 
even development of the platform.
    When I was running PA&E back in 2001 and 2002, I tried to 
get some traction in the Pentagon for making trades across the 
Service boundaries that balanced capabilities, in the very 
sense that Secretary Gates is advocating. I must say that, in a 
general sense, I can only applaud what he's trying to do, and 
perhaps add the comment that I think it's about time somebody 
tried to make those kinds of balanced decisions across a lot of 
different programs.
    With respect to the next-generation bomber, my divergence 
of opinion with the Secretary has to do with the rationale that 
was stated on April 6, which was that the need, the 
requirement, and the technology need to be better understood. 
My position, simply put, is we've studied that issue to death 
for the last decade--the Air Force, OSD, and everybody else 
under the sun--and I think, if you look to a rather stealthy 
platform that operates at high altitude, high subsonic mach, 
and perhaps is armed, in addition, to give it the survivability 
that it might need against advanced air defenses to get in and 
out, that the need, the requirement, and the technology are all 
pretty much in hand and reasonably well understood. I certainly 
can elaborate on all three of those.
    With respect to the need, my basic feeling is that this 
country, because of its global responsibilities, does need a 
credible capability to hold targets at risk anywhere on the 
globe. If you give me a platform that has a 2,500- to 3,000-
nautical mile combat radius from the last air refueling, you 
indeed can reach any point on the globe.
    If future targets happen to be in defended airspace with 
advanced air defenses, the only platforms that we have today 
that have a serious capability of being able to execute those 
missions would be the 20 remaining B-2s. They are getting a 
little long in the tooth. They were originally designed back in 
the early '80s. Steps have been taken to enhance their 
capabilities. But, I think the time is due to look to a new 
platform and move ahead.
    I just remind you, we actually built 21 B-2s, and we lost 1 
on takeoff at Guam last year. That's a reminder of something 
that I think we've lost track of in our thinking about 
operational requirements. Attrition occurs even in peacetime, 
much less in wartime. That suggests that residual 20-airplane 
fleet is very thin.
    With respect to requirements, I've looked at a number of 
conventional scenarios. Most of them emphasize the need for 
long reach. For example, you just don't get forward air bases 
or you encounter the kind of anti-access-area denial 
capabilities that the People's Liberation Army 2nd Artillery 
Corps is developing, and those kinds of challenges mean you're 
probably going to need much longer range than we have with the 
short-range fighters, even with air refueling.
    The other requirement that I want to touch on is the need 
to deal with time-sensitive targets, targets that are emergent, 
that are fleeting, that are only there for a short period of 
time. Our adversaries now understand pretty clearly that if the 
U.S. forces know where a particular target or aim point is, we 
can put a precision weapon on it very quickly and efficiently.
    So, the name of the hider-finder game in this context 
becomes, over time, the natural thing for our adversaries to do 
is to try to deny the precision targeting information to us. 
So, a classic example would be a hidden mobile missile 
launcher. You really can't find it until it comes out into the 
daylight or nighttime, tries to go to a predetermined launch 
site, launches its missile, and then runs back to hide and 
rearm. That suggests a need to be able to persist inside 
defended airspace and wait for those targets to reveal 
themselves. That's the core design requirement that I have 
gotten to in trying to think about this weapons system.
    Lastly, as far as the technology is concerned, I believe 
most of it really is in hand. An awful lot of the avionics, the 
low observability technology, and things like it, can be found 
in the JSF today, in the F-22, and other fifth-generation 
platforms that we've been building.
    Let me end by just saying I strongly agree with and support 
Secretary Gates' repeated pronouncements, up until April 6, 
that we need to begin moving more in the direction of long-
range systems and away from short-range systems. But, the 
obvious point that I think has to be made is, if we are only 
going to be buying JSFs for the foreseeable future, it's hard 
for me to understand how we're going to start to make that 
shift towards longer-range systems. I think the time is really 
here to go ahead with a new long-range strike system of some 
sort.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Watts follows:]
                  Prepared Statement by Barry D. Watts
                              introduction
    On April 6, 2009, Defense Secretary Robert Gates announced eleven 
programmatic decisions he planned to recommend to the president for 
inclusion in the Pentagon's fiscal year 2010 budget. These decisions 
represented an attempt to reshape ``the priorities of America's defense 
establishment'' via a ``holistic assessment of capabilities, 
requirements, risks and needs.'' Gates' stated goal was to shift the 
Defense Department's strategic direction.
    Having failed to generate momentum for a similar rebalancing of 
priorities across the boundaries of the military Services during my 
brief tenure directing the Office of Program Analysis and Evaluation in 
2001-2002, I applaud what Secretary Gates is trying to do. In fact, I 
agree with all his programmatic choices save one: the decision not to 
pursue a development program for a follow-on Air Force bomber at this 
time. Even in this case, my disagreement is not over the decision 
itself but the reasons given for it. If Secretary Gates had said that 
developing a next-generation long-range strike system (LRSS) is simply 
unaffordable at this time in light of more pressing needs and 
priorities, I would have been inclined to defer to his judgment. But 
the rationale Secretary Gates offered was that the Pentagon needed to 
wait until there is ``a better understanding of the need, the 
requirement, and the technology.'' My view is that the need, 
requirement, and technology are all reasonably well understood. Indeed, 
all three have been quite clear for some years.
                                the need
    What is the need for a new long-range strike system? Since the 
collapse of the Soviet Union in December 1991, the United States has 
been--and remains--the world's only global military power. At the core 
of the U.S. position is the capability to hold at risk, or strike, 
targets anywhere on the globe within hours-to-days. Currently, this 
capability is widely understood to mean primarily the capacity to do so 
with conventional precision munitions. However, it need not be limited 
to non-nuclear weapons. While the B-2 has, thankfully, only delivered 
conventional weapons such as the Joint Direct Attack Munition (JDAM), 
the aircraft also has a nuclear mission.
    With regard to conventional long-range strike, the United States 
first demonstrated a genuine global reach on January 17, 1991, the 
opening night of the first Gulf War (Operation Desert Storm). As part 
of the initial Air Tasking Order for the air campaign, 5 B-52s launched 
from Barksdale Air Force Base (AFB) in Louisiana and delivered 35 
Conventional Air Launched Cruise Missiles against targets in Iraq. 
Since then, the B-2 has demonstrated the same global reach. During 
Operation Allied Force in 1999, B-2 bombers, launching from and 
recovering at Whiteman AFB, MO, mounted 45 successful sorties against 
Serbian targets. These sorties delivered some 1.3 million pounds of 
precision munitions, mostly JDAMs.
    The other significant change in the utility of the older B-52 and 
B-1 since Allied Force in 1999 has come from equipping both bombers 
with inexpensive precision munitions. During the major combat phase of 
Operation Iraqi Freedom, B-1s carrying 24 JDAMs provided round-the-
clock, on-call precision fire support for coalition ground forces. The 
integration of JDAM and even laser-guided bombs (LGBs) on heavy bombers 
has dramatically increased their effectiveness in conventional 
operations.
    However, for targets located deep in enemy territory--meaning more 
than 1,000 nautical miles from the last air-to-air refueling--the only 
air-breathing strike platforms the United States possesses today with 
reach and survivability to have a chance of successfully executing such 
missions inside defended airspace are the 20 surviving B-2s. But even 
with upgrades to their signatures, how survivable will these 20 B-2s be 
in coming decades against advanced air defenses? The B-2, after all, 
was designed in the 1980s and achieved initial operational capability 
(IOC) over a decade ago. Moreover, the crash of the 21st operational B-
2 during takeoff at Guam in early 2008 is a reminder that attrition can 
and does occur even in peacetime.
    Global strike is a critical mission for the U.S. military--a 
strategic ``business'' in which the United States needs to retain a 
credible and dominant capability. Long-range, penetrating strike 
systems provide, among other things: a hedge against being unable to 
obtain access to forward bases for political reasons; a capacity to 
respond quickly to contingencies such as the failure of a nuclear-armed 
state; the ability to base outside the reach of emerging adversary 
anti-access/area-denial capabilities; and the ability to impose 
disproportionate defensive costs on prospective U.S. adversaries, as 
the bomber leg of the nuclear triad did on the Soviet Union during the 
Cold War. Addressing these needs constituted much of the rationale 
behind trying to field a next-generation bomber by 2018. Granted, the 
2018 IOC was ambitious. The early or mid-2020s would probably have been 
adequate. But to end the 2018 bomber development effort at this time 
appears to be a short-sighted decision.
    The need to move ahead with a penetrating, follow-on LRSS to the B-
2 has historical roots that reach back to the early 1980s. At White 
Sands in 1982, the Assault Breaker program demonstrated the feasibility 
of combining wide-area sensors with missile-delivered terminally guided 
submunitions to attack tanks and armored fighting vehicles deep in an 
enemy army's rear echelons. This demonstration argued that, sooner or 
later, military systems exploiting Assault Breaker technologies--
``reconnaissance-strike complexes'' as the Soviets called them--would 
be able to dominate large areas from long ranges with precision fires. 
This prospect, in turn, posed a long-term challenge to U.S. power 
projection capabilities based on short-range strike platforms and 
forward bases. In the hands of prospective U.S. adversaries, 
reconnaissance-strike complexes offered the possibility of holding at 
risk American forward bases such as Kadena AFB on the island of Okinawa 
and even carrier battle groups operating in the Western Pacific.
    When the Office of Net Assessment's 1992 preliminary assessment of 
the late 20th century military-technical revolution--more widely known 
as the ``revolution in military affairs''--appeared in 1992, even the 
U.S. military could not claim to possess the kinds of reconnaissance-
strike complexes Soviet military theorists had been forecasting since 
the 1970s. Today, however, China's 2nd Artillery Corps is developing 
area-denial/anti-access capabilities that could compel U.S. power 
projection forces to operate from distances of 1,000 nautical miles or 
greater from the Chinese mainland. Granted, from the Korean and Vietnam 
wars to the current conflicts in Afghanistan and Iraq, the U.S. 
military has been able to rely primarily on in-theater bases and short-
range strike systems to project power in distant overseas theaters. 
Looking ahead to the second decade of the 21st century, however, it 
seems clear that the era in which the United States could get away with 
forward basing for power projection by short-range systems is coming to 
a close. As Secretary Gates himself stated in an article in the 
January/February 2009 issue of Foreign Affairs, the Chinese military, 
among others, is fielding a range of disruptive systems to blunt the 
impact of U.S. power, narrow the United States' military options, and 
deny the U.S. military freedom of movement and action.
    The force-structure implications of these developments for the 
United States are also clear. China's growing anti-access/area-denial 
capabilities will, as Gates wrote in his Foreign Affairs article, ``put 
a premium on the United States' ability to strike from over the horizon 
. . . and will require shifts from short-range to longer-range systems, 
such as the next-generation bomber.'' Moreover, this article does not 
constitute the only occasion when Secretary Gates articulated the need 
to shift from short-range to long-range systems. In a speech at the 
National Defense University in September 2008, he used virtually the 
same language to support the need for a follow-on LRSS. It is 
difficult, therefore, to see why, in April 2009, a better understanding 
is suddenly needed of a ``need'' that appeared clear as recently as 
January is suddenly called for.
    The pre-April 2009 Secretary Gates is right. The U.S. military 
needs to begin shifting its force structure more in favor of long-range 
systems. However, investing exclusively in short-range systems such as 
the F-35 Joint Strike Fighter (JSF) in the near term is not going to 
bring about the needed shift.
                            the requirement
    What would we want a new long-range strike system to do? What would 
be its primary mission requirements? In 2008 the Center for Strategic 
and Budgetary Assessments took another look at these questions. The 
resulting report identified six generic scenarios for conventional 
operations that a new LRSS should be able to address. Of these six 
scenarios, four appear to be the most important in defining the 
requirements for a new LRSS. They are:

          (1) Situations requiring a sufficient radius of action from 
        the last air-refueling point to reach targets deep in defended 
        airspace;
          (2) Conflicts in which there is a need to strike targets at 
        intercontinental distances from the continental United States 
        because in-theater bases are not available;
          (3) Missions requiring the survivability to persist in 
        defended airspace in order to prosecute emergent and time-
        sensitive targets; and
          (4) Operations in which U.S. forces must have the radius of 
        action to be able to operate from beyond the reach of anti-
        access/area-denial capabilities.\1\
---------------------------------------------------------------------------
    \1\ Barry D. Watts, ``The Case for Long-Range Strike: 21st Century 
Scenarios,'' CSBA, 2008, pp. 19-30. This report is available online at 
http://www.csbaonline.org, as is CSBA's 2005 report on the same 
subject, ``Long-Range Strike: Imperatives, Urgency and Options.''

The first, second, and fourth of these scenarios emphasize the range or 
reach of the platform. For these scenarios a straightforward design 
goal would be a combat radius of 2,500 nautical miles from the last air 
refueling at altitude in benign airspace.
    The third scenario, by contrast, arises from the natural responses 
of intelligent adversaries to U.S. precision engagement capabilities. 
Since Operation Desert Storm in 1991, American adversaries have become 
acutely aware that if U.S. strike platforms can locate a target, they 
can hit it with conventional guided rounds such as JDAM or a LGB. The 
logical response has been to use hiding, concealment, movement, and 
relocation to deny U.S. forces the precise targeting information 
weapons like JDAM require--or at least limit the amount of time their 
high-value assets would be exposed to American precision fires. A 
mobile missile launcher that moves rapidly from a concealed location to 
a firing position, launches its missile, and then returns to a hidden 
position is a classic example of a time-sensitive or emergent target. 
It is this problem that leads to the requirement that the next LRSS be 
able to persist or loiter inside defended airspace so as to be nearby 
when such targets do expose themselves. Thus, the basic requirements 
that a new long-range platform should meet for conventional operations 
do not appear to be particularly mysterious. Without the reach and 
survivability inherent in the four generic scenarios, one could not 
justify the likely costs--at least $15 billion--of developing a new 
LRSS.
    Additionally, CSBA's 2008 report argued that the platform should 
also have some capability for delivering nuclear weapons. The B-52, it 
is worth remembering, was designed exclusively for nuclear operations. 
Like the B-2, the B-52 has never delivered a nuclear weapon in anger. 
Since the late 1960s, however, B-52s have delivered conventional 
munitions in every major conflict in which the United States has been 
involved. If the next long-range LRSS can meet the range and 
survivability requirements for conventional operations outlined above, 
there seems no compelling reason to make the platform conventional 
only, so long as the costs of hardening against electromagnetic pulse 
are kept under control. After all, some electromagnetic hardening of 
the platform will be needed in any case. Again, the core need that a 
new LRSS must meet is to be able to hold at risk, or strike, targets 
anywhere on the globe with whatever weapons the contingency requires.
                             the technology
    How mature are the technologies that would be needed to develop a 
new LRSS able to satisfy the generic scenario requirements just 
described? If the system is optimized for high-altitude penetration at 
high subsonic cruise speeds, the requisite aerodynamic, structural, and 
low-observables technologies already exist in B-2 and fifth-generation 
fighters such as the F-35. Only the engine technology to achieve both 
long range and a supersonic dash capability to avoid being run down by 
enemy interceptors is not yet in hand. This vulnerability to enemy 
fighters is the main reason why the (now retired) F-117 and B-2 have 
operated exclusively at night when inside enemy airspace.
    How might this vulnerability be addressed in a new LRSS lacking a 
supersonic dash capability? The logical answer is to equip the platform 
with advanced air-to-air missiles and the sensors to provide sufficient 
situational awareness for the LRSS to be able fight its way into, and 
out of, defended airspace. Much of the required sensors and other 
avionics already exist in the JSF.
    Another major design choice is whether to make a new LRSS manned or 
unmanned. Given the current state of the art, one suspects that 
situations could arise in which a manned platform would be preferable. 
On the one hand, a manned platform would enable strike execution to be 
aborted right up to the very last moment. On the other, an important 
vulnerability of an unmanned LRSS would be the possibility that 
sophisticated adversaries could interfere with the data links used for 
oversight and remote control of the platform. Such interference has 
not, so far, emerged as a serious problem with intelligence, 
surveillance and reconnaissance platforms such as Predator, Global 
Hawk, and Reaper in Iraq and Afghanistan. However, both the Russians 
and Chinese are not only well aware of this vulnerability, but have the 
technical potential to exploit it themselves or sell the capability to 
others. Thus, one would want to think twice about making a new LRSS 
exclusively unmanned.
                               conclusion
    The need for a need for a new LRSS has been fairly clear for some 
years. Up until April 6 of this year, this need appears to have been 
understood by Secretary Gates. Equally clear are the operational 
requirements that a follow-on LRSS would need to meet and the maturity 
of most of the requisite technologies. As with a new tanker for aerial 
refueling, the Air Force and the Office of the Secretary of Defense 
have, for one reason or another, been unable to reach a firm decision 
to move ahead with a new LRSS for nearly a decade now. This is a 
strategic choice that cannot, and should not, be deferred any longer.

    Senator Lieberman. Thank you, Mr. Watts. It was very 
interesting testimony.
    Let's do 7-minute rounds of questioning. A vote may go off 
around 2:45 p.m., but if we do it right, I'll ask my questions 
and run over and vote, and we'll keep this going.
    Mr. Watts, let me ask you to develop the argument for not 
agreeing with Secretary Gates to really push off investments in 
a long-range strike-plane bomber. Develop, a little bit more, 
if you will, as you have somewhat in your testimony, the 
argument for what Secretary Gates calls hybrid warfare and give 
us a little history for the extent to which the bombers have 
been used in hybrid/conventional warfare or as compared to 
strategic conflicts.
    Mr. Watts. In general, starting with Operation Desert 
Storm, you had very small numbers of bombers delivering 
proportionately larger amounts of the ordnance. As we've moved 
into precision conventional munitions, the weight of the number 
of tons of ordnance delivered has become less important than 
the number of aim points you could cover. I've had no success 
predicting the contingencies that we end up facing as we go 
into the future. We've spent a lot of time and energy 
projecting future scenarios and future contingencies, but, in 
general, long-range platforms, particularly ones with a fair 
degree of survivability, are just very flexible things. You can 
use them to support ground forces.
    This occurred very dramatically in 2003 during Operation 
Iraqi Freedom. If you go back and review the 3rd Infantry 
Division's after-action report, I think it would not be an 
exaggeration to say that the people on the ground loved the 
JDAM. It was there, on call, when they needed it, and it 
provided the kind of precision fire support that the Army did 
not possess at that point in time.
    Now, guided Multiple Launch Rocket System and other 
precision munitions have finally started to enter the Army's 
inventory, so they have their own precision organic indirect-
fire support, in addition to the airplanes. But, the ability of 
those B-1s, with 24 JDAMs, to just hang out overhead and drop 
on Global Positioning System (GPS) aim points on call was 
really important and impressive. That was high-tempo combat 
operations, but that capability can be used day-in and day-out, 
even in hybrid conflicts.
    Senator Lieberman. Let me ask you to come at this in a 
slightly different way. In your testimony you specifically say, 
``missions requiring the survivability to persist in defended 
airspace in order to prosecute emergent and time-sensitive 
targets.'' What new technologies would have to be developed to 
make this possible? Are they in reach?
    Mr. Watts. I think the sensing technology and the 
computational capabilities you would need onboard the platform 
are being put into the JSF as we speak. So, I don't think 
there's a great stretch, in terms of the technology that would 
be required.
    If you go back in the history of the JSF, there was a 
discussion early on about simply relying on offboard sensing 
for finding targets.
    Senator Lieberman. Right.
    Mr. Watts. We ended up going in almost the opposite 
direction in providing a very sophisticated or all-the-way-
around the airplane sensing capability and advanced 
electronically scanned radar, with the underlying computational 
capability onboard that airplane and the ability to be able to 
upgrade that capability incrementally over time. I think the 
technology's here, sir.
    Senator Lieberman. If you were writing the defense budget 
for next year, understanding that you disagree with the 
recommendations of Secretary Gates, what would you put in for 
the long-range strike systems for the bombers?
    Mr. Watts. An amount of money, sir?
    Senator Lieberman. No, that's an unfair question. What 
would be your goal? By when would you like us to be able to do 
what?
    Mr. Watts. The 2018 goal was very ambitious.
    Senator Lieberman. Right.
    Mr. Watts. If you stick with the kind of high-subsonic, 
high-altitude platform that I've describe, and you run a very 
disciplined development program, I think in another 10 to 12 
years you ought to be able to reach initial operational 
capability. The problems of mission and requirements creep in 
the programs are certainly an issue.
    One of the alternatives to what I've described, that the 
Air Force and the Defense Advanced Research Projects Agency 
have talked about, would be a hypersonic cruise vehicle, mach 6 
to 8. There, you are stretching all kinds of technologies--
material technologies, engine/propulsion technologies--and at 
best, people have discussed being able to get there by the 
2030s or maybe even as late as 2040. But, if you don't do that 
kind of development, if you focus on the kinds of mission 
requirements I've described, I think, by the early- to mid-
2020s, you could field something. I have talked to some of the 
companies about, ``Tell me how much the development costs for a 
very disciplined system might be.'' Most of the voting seems to 
be under $10 billion.
    Senator Lieberman. Over what period of time?
    Mr. Watts. The development period of the airplane would be 
8 to 10 years.
    Senator Lieberman. That's very interesting. I invite you to 
give us more detailed information afterward.
    General Hawley, do you have a quick response to this Gates-
Watts debate on the bombers?
    General Hawley. Yes, sir. I would share an anecdote that 
occurred late in my Active Duty career. I was having a 
discussion about bombers with the Commander at Training and 
Doctrine Command, my Army colleague across the river, and he 
was wondering about their capability to drop these precision-
guided munitions we were then calling JDAMs. I said, ``Bill, 
one of these days, bombers are going to be providing CAS to 
your troops on the ground.'' It was not long afterward, in 
Afghanistan, when bombers were providing CAS to our Army forces 
on the ground and to that outfit we called the Northern 
Alliance.
    Senator Lieberman. Right.
    General Hawley. So, this idea that they're only useful in 
strategic contests is very dated. In my view, we've come full 
circle. At the beginnings of modern air power in World War II, 
bombers were the platforms we used to destroy targets on the 
ground and fighters were the things that got them to the target 
and back. In between, we went through a period where bombers 
couldn't survive against terminal defenses; and so, we used 
fighters to get into the target, destroy the target, and then 
get out. We've now come full circle. We're at a point where the 
primary role for our fighter force should be to get the bombers 
to the target, because of the payload advantages that have 
already been mentioned, their ability to loiter over the 
target. As a fact in Vietnam, the most valuable thing I could 
get was time on station from somebody with a bomb because 
that's what my forces on the ground needed. They needed the 
bomb to come down at the right time and the right place. 
Today's bombers can do exactly that. So, they are certainly 
high-utility systems across the full spectrum of modern 
warfare.
    Senator Lieberman. Excellent. Thank you very much.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    If I might come at that question a slightly different way, 
and this would be to Mr. Watts or General Hawley. In your view, 
is the present bomber fleet sufficient to hold targets deep in 
defended airspace at risk over the next 25 to 30 years? Because 
absent a commitment to any kind of a next-generation long-range 
strike capability, that's what we're talking about doing.
    General Hawley. Senator, I think your question gets to the 
heart of the issue that Congress is going to have to wrestle 
with as they consider these proposals, which is: What kind of a 
future should we prepare our forces for? You cite the timeframe 
of 25 or 35 years. That's a long time. As my colleagues have 
said, we've never been very successful at predicting what kinds 
of engagements we will find ourselves in, 20 or 30 years hence.
    In my view, those 20 remaining B-2s are the only part of 
the bomber force that is likely to be able to penetrate and do 
the job that we expect of this class of weapon systems against 
any serious adversary, 20 or 30 years hence.
    The challenge for Congress, I think, and for DOD, is to 
balance this vision of the future and what kind of adversaries 
we may face against the cost to mitigate that risk. That's a 
difficult issue. In my view, we are out of balance in the 
current proposal, and we are underestimating the seriousness of 
the threats that we might face in that timeframe.
    Senator Thune. My assumption is that if, in fact, this 
decision with regard to the next-generation bomber were to 
stand, we would have to do significant upgrades, probably, to 
both the B-2 and perhaps the B-1. The Sniper pod that was added 
to the B-1 has even improved the targeting and the capability 
of that aircraft to provide the CAS that you talked about 
earlier to our troops in places like Afghanistan. But, what 
kind of investments would you expect to see in all of our 
current platforms in light of this announced decision on the 
next-generation bomber? What is our alternative plan to upgrade 
the existing capabilities that we have? I think what you were 
probably getting at is the stealth capability of the B-2. But, 
are there things that can be done to the B-2 and the B-1 that 
make them capable of survivability into that 25-year timeframe 
I mentioned?
    General Hawley. Certainly, there are continuing 
improvements to the B-2, and my understanding is that Congress 
and the Air Force have been together on developing programs to 
continue to modernize the B-2 and the B-1. It's not that these 
airplanes aren't going to be useful, it's just, will they be 
what we need against a very competent adversary? The assumption 
that I think is underlying many of these decisions is that 
there isn't going to be a really serious adversary out there; 
therefore, what we have will be useful in the vast majority of 
contingencies that we're likely to face. There are many things 
that can be done to make all of those platforms more capable 
and more survivable in some set of circumstances.
    But, if we, as a Nation, believe that we need to be 
prepared for the more difficult challenge of a serious 
adversary with well-funded and well-planned forces, then we 
need something beyond the current bomber force, and that's the 
next-generation bomber that has just been put on hold.
    Senator Thune. Do you think the assumption is that the 
threat matrix that we face in the future is going to consist 
more of a low-end asymmetric type? The assumption underlying 
this recommendation, if we are going to have a high-end 
conflict/threat out there in the future, would seem to make a 
pretty compelling argument for at least the development of this 
next capability. So, is your view that the assumption that is 
being made is that we aren't going to need that type of 
capability because the threat's not going to require it?
    General Hawley. Yes, sir. In my view, these decisions 
reflect an assumption that anticipates an outcome of a QDR and 
a national review of our strategies that forecasts a future in 
which we will have few, if any, adversaries who are near peer 
or can field near-peer forces.
    Senator Thune. How does that square with the well-
documented belief that countries like China are developing more 
sophisticated air defense systems? It just seems to me that if 
you look out there in the future, and I think most of our 
combatant commanders would tell you the same thing, that we're 
going to need this long-range strike, because some countries 
are developing air defenses that are much more sophisticated 
than anything that we've encountered in the past, and the 
ability to penetrate those and to have the kind of range and 
persistence to loiter over targets seems to be almost a given. 
I guess I'm trying to figure out where are the recommendations 
coming from, based on what I think most people see over the 
horizon.
    General Hawley. You probably have access to even better 
intelligence than I do on where some of these nations are going 
with the forces they're developing. So, let me share a little 
experience with you from my past. Vietnam was the theater in 
which I was a participant, and I would just remind the 
committee that in Vietnam we faced a third-rate adversary 
fielding an air force of about 200 airplanes at any given time, 
and we lost over 2,200 fixed-wing airplanes in that contest.
    If you go into one of these fights unprepared, you are 
going to suffer horrendous losses. We suffered horrendous 
losses in Vietnam, and we did so because we went into that 
fight ill-prepared, ill-equipped, and ill-trained. As a result, 
we wound up with a lot of good people who were held as 
prisoners of war for a long period of time. My fear is that we 
are so confident of a future absent a serious adversary who is 
willing to either field those kinds of forces, or sell them to 
someone else who we wind up being engaged with, that we'll pay 
that kind of price again.
    Senator Thune. Mr. Watts, anything to add in that 
discussion?
    Mr. Watts. To go back to your earlier question, which was, 
``Do you think the existing bomber force can be confidently 
relied upon to carry us through the next 20 or 30 years?'', my 
answer would be no, I don't think so.
    Senator Thune. Okay. My time is up, thank you.
    Senator Hagan [presiding]. I know we all need to scoot and 
vote in a minute, but I did want to ask a question along the 
same line. I agree with Secretary Gates' insight to leverage 
the capabilities that are conducive to our ever-changing 
operational environment; specifically, counterinsurgency 
operations, the high- and low-intensity asymmetric warfare, and 
the other types of irregular warfare. We need to continue to 
augment ground operations with effective air support, unmanned 
aerial and ground vehicles, and reconnaissance capabilities 
that are flexible to conduct across the full spectrum of 
operations.
    General Hawley, going forward, what air platforms do you 
think are best suited for the operational requirements that 
we're talking about, now and in the future?
    General Hawley. You need a range of platforms, in my view. 
We have always fielded a mix in forces with capabilities to 
allow us to accomplish our missions in a variety of scenarios. 
We've never had the luxury of saying, ``We're only going to 
fight one kind of war.'' So, we've fielded a mix of systems, 
and I think we should field a mix of systems, going forward. We 
need some that are optimized for that ground fight, Air Force 
support of the ground fight, which is the role I played as a 
forward air controller in Vietnam. That's the role of the A-10 
today. That's what we buy Predator airplanes for, in order to 
provide the forces on the ground with that staring view of the 
target that has proven so valuable in the current fights. Then 
you need another set of capabilities to guard against the war 
that you hopefully want to deter.
    I would put a high premium on conventional deterrents. I 
think we're in a pretty good place today. We've been through 
the years when we were threatened with nuclear annihilation. We 
are now at a point where no serious country is willing to take 
on our military, because of our dominant conventional 
capabilities. The only people who can threaten us are 
terrorists on the ground with roadside bombs. In my view, 
that's a pretty good place to be. I'd like to not reverse our 
course and get back to the point where people are willing to 
take us on in a conventional fight, because that's the most 
expensive kind of fight we can get into.
    Senator Hagan. Mr. Watts and Mr. Bolkcom, any thoughts?
    Mr. Bolkcom. I agree with the General. We clearly want to 
field a range of forces. I want to point out, relative to the 
conversation we just had about bombers, I think the important 
thing is replacing the capability, augmenting the capability, 
sustaining the capability, and not necessarily a particular 
platform. We do tend to forget about the Navy in these sorts of 
discussions. I don't understand why we aren't seriously looking 
at a long-range naval-based airplane. Bombers fly from this 
great sanctuary called the United States. Fighters are 
vulnerable, as we heard this morning in the full committee, to 
this anti-access threat. Certainly, carriers may be vulnerable 
as well, but they have the freedom of movement and standoff.
    As we think about long-range airplanes, one advantage of a 
long-range naval aircraft is a higher sortie generation rate 
than flying all the way from the contiguous United States to 
combat.
    So, I'm not advocating that, but just trying to plant the 
seed in your mind as we think about these long-range standoff 
anti-access capabilities, it's not necessarily just fighters 
versus bombers, but maybe fighters and bombers and carrier-
based aviation.
    Mr. Watts. If I could just add to that, Steve Kosiak, one 
of my CSBA colleagues, and myself looked at the JSF, in 
particular, a few years ago, and with respect to the carrier 
version or the carrier variant, it really wasn't going to 
extend the legs off the deck of the strike capability by adding 
an F-35. Something like that in the Unmanned Combat Air Systems 
program looked very attractive to me on the ground, so that if 
you could get 1,500 nautical miles out and back, as opposed to 
500. That would preserve the value of those large aircraft 
carriers and all of the supporting ships that go with it a lot 
more than just fielding another short-range fighter that's more 
low-observable, certainly, than the FA-18E/F.
    So, there are clearly options on the Navy side that could 
be very usefully explored.
    Senator Hagan. Thank you.
    Senator Lieberman [presiding]. Thanks, Senator Hagan.
    That worked well. I'll proceed until someone else comes 
back.
    General Hawley, you made a very strong case against the 
recommendations to basically terminate production of the F-22s 
and the C-17s. It seemed to me that you were making two big 
points. First, is that those recommendations are not supported 
by the analysis presented. Second, it would be more advisable 
to wait until the QDR was completed before making those 
judgments. Go back, if you would, and just spend a little more 
time making the case that there's not really analysis that 
Secretary Gates presented, at least on April 6, that supports 
the termination of the production of the F-22 and C-17.
    General Hawley. Yes, sir. As I told you, I participated in 
the original analysis that arrived at the 381 figure; 381 is 
the number that would equip 10 squadrons with 24 airplanes 
each, and it would provide a sufficient force to deploy for 2 
nearly simultaneous major contingencies where we faced an 
adversary with a significant air-to-air and surface-to-air 
capability. That was the threat that we were supposed to plan 
for at the time.
    Since that time, there have been a lot of studies that 
looked at how many F-22s we needed. I know the committee is 
aware of many of them. I think the most recent one was done by 
W.W. Brown; and I believe that number came out at 260. Clearly, 
that's less than my 381 number, but they had different 
assumptions. As the Chairman knows, the outcome of any study is 
dependent upon the assumptions upon which it was undertaken. 
But the lowest number, that I'm aware of, that anyone has 
arrived at through serious threat-based analysis is 260, well 
in excess of the 187 that we're being asked to accept.
    That's why I say there is no analytical underpinning to the 
number. As you say, I think it preempts any subsequent analysis 
that will be done in support of the QDR, which is just 
beginning, for delivery to Congress about this time next year. 
So, we're making an irrevocable decision in advance of the 
analysis that Congress requires DOD to undertake each 4 years 
in order to support our ongoing strategy for the new 
administration, and it occurs in advance of what I'm sure will 
occur over the next number of months as the new 
administration's review of our National Security Strategy and 
the supporting National Defense Strategy and National Military 
Strategy. To make an irrevocable decision which does not rest 
on any known analysis appears to me to be imprudent. It would 
be prudent to continue production and give ourselves the option 
to make that decision a year hence, when it will be much better 
informed by both analysis and a new strategic formulation.
    Senator Lieberman. Do you assume, in light of what you've 
just said, that the decision on the F-22 and C-17 were really 
made for budgetary reasons?
    General Hawley. I do think that's a major part of it, that 
there was a budget ceiling that people had to live within. Of 
course, we've all been part of that drill.
    Senator Lieberman. Right.
    General Hawley. I certainly have. But, I do think there's a 
little more to it. I think there's also an issue involved in 
these escalating prices for all the things we buy, our 
acquisition problems, where we have encountered a total failure 
to be able to develop and deliver weapon systems on time, 
within budget. I think DOD has concluded that, in order to make 
the F-35 affordable to three Services, it must be produced in 
large quantities, and that every F-22 that we buy is an F-35 or 
so that we won't buy, and that that will increase the unit 
cost. So I think we're sacrificing operational capability for 
acquisition efficiency.
    Senator Lieberman. Thank you. I have more questions, but I 
welcome Senator Chambliss back, and I call on him at this time.
    Senator Chambliss. I kind of like that line of questioning 
you were on, Mr. Chairman.
    Senator Lieberman. I just was setting it up for you. 
[Laughter.]
    Senator Chambliss. General Hawley, what priority would you 
give to the ability of the United States Air Force to maintain 
air superiority and air dominance for our ground troops?
    General Hawley. Given my background, I'm probably biased, 
but, in my view, it is the top requirement for the Air Force. 
It is the first thing that the Air Force is asked to do for the 
Joint Forces Commander. In any contest that we were involved 
in, in my Active Duty career or since, the first things that 
are required to go forward are air superiority platforms. The 
last time we faced an adversary where we thought we might 
encounter a serious air-to-air threat, I was in the Pentagon as 
the Deputy Director for Operations. The first platforms we sent 
forward were F-15s, which were only capable of air superiority. 
Why? Because that's what the Joint Forces Commander asked for. 
Central Command Commander wanted to make sure that he could 
defend his airspace.
    So, it is the highest-priority mission that the Air Force 
can do for Joint Forces Command.
    Senator Chambliss. Has the F-22 been pointed to, over the 
last decade, as the next-generation fighter that was going to 
allow us to maintain air dominance and air superiority?
    General Hawley. People call the F-22 program a Cold War 
relic. The program began in 1991, coincident with the first 
Gulf War and after the collapse of the Soviet Union. DOD and 
Congress supported development fielding of this program 
throughout the post-Cold War period. It is the platform that 
was designed to assure this country's ability to provide air 
superiority over any battlefield, and it is the envy of every 
air force in the world, at this point in time.
    Senator Chambliss. Was not the JSF intended to complement 
the F-22, rather than replace the F-22?
    General Hawley. I was also involved in the decisions to 
design the F-35 and establish its requirements, and that's 
exactly right, sir.  The  F-35  was  conceived  as  a  
complementary  system  to  the  F-22, with the F-22 providing 
the capabilities to ensure that the F-35 could penetrate, 
survive, accomplish its mission, and return to base.
    Senator Chambliss. Mr. Watts, you're a former fighter 
pilot. You were PA&E in, I guess, 2000, when you left there?
    Mr. Watts. It was 2002, sir.
    Senator Chambliss. Excuse me, 2002. That was the point in 
time when the F-22 buy was set at 183. Do you know of any 
analytical reason that that 183 number was arrived at then, or 
was it purely budget-driven?
    Mr. Watts. My understanding was that it was purely budget-
driven. The Air Force was essentially told, ``Given the cap on 
the program, the total acquisition program, you can produce as 
many as you can under that cap.'' Early on, they thought they 
were going to get a lot more, up in the 220 range, but it's 
turned out to be 187. So, yes, sir, it had nothing to do with 
requirements.
    Senator Chambliss. Okay.
    General Hawley, do you know of anything, based upon your 
contact with DOD during your years on Active Duty, which I 
understand ended around 1999, but you've remained in close 
contact with the Pentagon since that time; has there been any 
discussion or confirmation, from an analytical standpoint, with 
reference to arriving at the military requirement of 183 
aircraft, now 187, for the F-22?
    General Hawley. No, sir.
    Senator Chambliss. Now there appears to be another budget-
driven question about the termination of the line. Is it not 
normal to have some analysis for terminating a line, versus 
deciding to terminate the line and then do your analysis after 
the fact, which appears to be what the Secretary is doing here?
    General Hawley. In my experience, when we have terminated a 
production line, it has always been the result of some kind of 
analysis. Seldom has it been purely a budget-driven decision.
    Senator Chambliss. Are you familiar with the Secretary of 
the Air Force's continual statement over the last several weeks 
and months that the new military requirement for the F-22 is 
243?
    General Hawley. Yes, I am.
    Senator Chambliss. Do you know of any analysis that went 
into arriving at that number?
    General Hawley. I know that the Air Force arrived at that 
number because they thought they could support the current 
strategy with 243 airplanes at a moderate risk level, as the 
current chief of staff has described, but it provides no 
attrition reserve capability. So, over time, that capability 
would erode to a high-risk force.
    Senator Chambliss. Dr. John Hamre, whom all of you know, 
testified this morning in another hearing that with a 
contingent of 187 F-22s, by the time you take out planes for 
testing, by the time you consider planes that are in depot 
maintenance, you're going to wind up with combat-coded 
airplanes roughly in the range of 125 to 135. Is that a fair 
assessment, General Hawley and Mr. Watts?
    General Hawley. The formula for sizing the force is, it 
takes about 100 airplanes to field a wing of 72 operational 
airplanes, so that's a pretty close number.
    Senator Chambliss. Okay. He also said that, over the course 
of the next 30 years for which this plane is going to be called 
on to give us air superiority and air dominance, we're going to 
lose about a plane a year. That's the norm that you can expect. 
So, we're looking at, long-term, having somewhere around 100 F-
22s that are going to be combat-coded, that are going to be 
expected to fill the role within the air expeditionary units. 
What kind of risk is that going to place us in?
    General Hawley. In my view, it's a high risk. Given that 
that's likely the number, about 100, we must understand that 
you never are able to deploy all of those airplanes. In my 
experience, you shouldn't expect to be able to have more than 
about 75 percent of that force available in a surge basis to 
support a combatant commander who faces a serious threat. So, 
it's even less than 100.
    Senator Chambliss. Okay.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thank you very much, Senator Chambliss. 
Good line of questioning.
    Senator Burris, welcome back. Do you want to proceed now?
    Senator Burris. Give me a couple of minutes, Mr. Chairman.
    Senator Lieberman. I had a few minutes left over, so I'm 
going to tide over.
    Let me approach this F-22 decision from this point of view. 
We've been talking the terms that insiders, people who live 
with this, talk about whether this is a wise decision, to 
terminate the line, or not. But, I think, in terms of the large 
canvas and the broad paintbrush, the explanation given, or at 
least heard from Secretary Gates' decision, was put in the 
larger context of we have to support the fight we're in. The 
fight we're in is irregular, it's a hybrid, we can't do 
everything, and we have some pretty good tactical air fighters, 
and we have the F-35 coming on. The F-22 isn't really related 
to the hybrid fight. Give me your reaction to that. Maybe we'll 
start that argument, Mr. Watts. In a sense, we've touched on 
it, but I wanted to just clarify and ask you to respond.
    Mr. Watts. A comment that has circulated around Washington 
about the F-22 is, ``Well, we haven't deployed it in any of the 
current fights.''
    Senator Lieberman. Right.
    Mr. Watts. The implication is, that shows that it just is 
irrelevant to the current fight. But, I don't think we're 
building it to deal with nonexistent air forces in Afghanistan, 
for example. I think we're looking further downstream into the 
future, at emerging threats. There was an Air Force exercise 
called Cope India, a few years back, where we took some of our 
better F-15s out there to do some training against the Indians 
and discovered that they had taken some older Soviet airplanes, 
made some local improvements to them that were very effective, 
and they had really trained their pilots up to a very high 
level of proficiency. My impression--I'm sure General Hawley 
could add to this--was that we were surprised at how good they 
turned out to be in that particular exercise. It's those 
higher-end problems that I think we ought to be thinking about 
and focusing on when we discuss both the F-22 and the F-35.
    Senator Lieberman. Is it an investment we are making now 
primarily against the rise of a high-end or major peer 
competitor like China or a resurgent Russia?
    Mr. Watts. The Russians have done an awful lot to 
incrementally improve the Flanker over the years, and it's a 
fairly formidable adversary, right now, today if you had to 
face it.
    Senator Lieberman. General  Hawley,  how  about  this,  fit 
 the  F-22 decision into what seems to be the overview that 
Secretary Gates presented us about the budget recommendations 
he made.
    General Hawley. It's clear that the F-22 isn't going to be 
very useful in an irregular-warfare fight.
    Senator Lieberman. Right.
    General Hawley. But, while we're in the irregular-warfare 
fight, we also need to maintain our deterrent posture to make 
sure that somebody doesn't take advantage of our preoccupation 
with that fight to threaten our interests elsewhere. That's 
where the F-22 comes into play. By the way, the F-22 isn't the 
only thing we buy that isn't suitable or tailored to an 
irregular fight; there are lots of other things, as well. We 
need those things to make sure that we continue to maintain a 
credible deterrent posture to keep people from taking advantage 
of us when we're preoccupied with situations like Iraq and 
Afghanistan.
    We are a global power, and we have global interests, and 
that means we have global vulnerabilities. These investments in 
systems like the F-22, in my view, are investments in 
deterrents, just like we invested in our nuclear capabilities 
throughout the Cold War that successfully deterred adversaries 
from ever attacking us with nuclear weapons or engaging our 
interests with nuclear weapons around the globe. It is the same 
equation.
    Senator Lieberman. Mr. Bolkcom, do you want to get into 
this?
    Mr. Bolkcom. Yes, sir, I'd love to, thank you. I think 
that, in terms of the risk question and trying to keep it at a 
big-picture level, General Hawley outlined what he sees as an 
operational risk of not buying more airplanes. Others share 
that view. I think there are a couple other risks, and 
actually, Senator Chambliss touched upon one. Another risk is 
creating another high-demand/low-density asset. If we have only 
100-odd of these airplanes, do they become another very 
expensive aircraft to operate and maintain? The Air Force is 
trying to avoid small fleets of expensive airplanes.
    This morning we heard at the full committee, another risk, 
as Dr. Krepinevich sees it, of wasting assets. On the other 
side of the equation, do you potentially risk buying more 
airplanes that are overdesigned for the threats you face? He 
saw that as, potentially, a strategic risk.
    Senator Lieberman. Thank you.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    General Hawley, are you also saying that we should not 
complete the C-17?
    General Hawley. To the contrary, I think that the C-17 
requirement, as stated, which is 205 aircraft, may be based on 
an outdated analysis. The analysis that came to the 205 number 
predates the currently planned expansion of both the Army and 
the Marine Corps. I find it hard to believe that, with a far 
bigger Army and Marine Corps to deploy and sustain, that 
wouldn't affect the outcome of a mobility requirements study; 
and hence, the 205 number is probably very conservative.
    Senator Burris. I was down at Scott Air Force Base, are you 
familiar with that?
    General Hawley. I am very familiar with Scott Air Force 
Base.
    Senator Burris. It was a little, small country town, a 
suburb of my hometowns of Centralia and Belleville, IL, just by 
way of fun. It was just a little Air Force landing field. I 
went down to Scott Air Force Base the other day, and it is a 
major development down there. So, were you ever at Central 
Command (CENTCOM) down at Scott?
    General Hawley. I have visited Scott. I've spent time with 
the commanders at Scott. I've also flown the C-17. I took 
delivery of a C-17 at Long Beach and flew it to Charleston, 
some years ago. It is a marvelous airplane.
    Senator Burris. It's a major expansion, Mr. Chairman. We're 
so pleased to see what they're doing. General McNabb is down 
there as commander for U.S. Transportation Command (TRANSCOM), 
and, I tell you, I had a great experience in visiting that base 
and looking at the expansion that's going on there, and I hope 
there's something in the budget to keep Scott up and running. I 
haven't seen all of the budget, but we have to make sure that 
Air Force operation stays there because that's where all the 
sorties have flown from for TRANSCOM, coming out of there.
    General Hawley. Right.
    Senator Burris. I want to ask a question to Mr. Bolkcom, in 
your opinion, should we be using some of our other threats as 
baseline for the design or for our defense posture? There is 
concern that military aviation is focused too much on the 
demand of our fighting conventional forces, is that a problem?
    Mr. Bolkcom. Sir, I think that what Secretary Gates is 
trying to do is position our current and future military, as he 
sees it, against the threat environment, as he sees it. He 
makes it clear he sees it as a spectrum of simultaneous threats 
that require rebalancing, potentially away from conventional 
state-on-state conflict towards more irregular conflicts. So, I 
think that is a clear direction by the Secretary.
    Senator Burris. Would any of that include this high-tech-
type warfare that we're moving to? Is that where we're headed 
now, to a technological warfare arrangement?
    Mr. Bolkcom. Sir, I think that's not a bad way of phrasing 
it. The proliferation of off-the-shelf commercial technology, 
like GPS and cell phones and the like, make unmanned aerial 
vehicles (UAVs) accessible, not only to state actors, but also 
paramilitary groups like Hamas. As General Hawley pointed out, 
we've driven even our state actors away from fighting us force-
on-force, and they're resorting to anti-access sort of threats, 
trying to keep us out, which oftentimes might include systems 
like you're describing.
    Senator Burris. So, are we to start budgeting? Are any of 
those requests in this 2010 budget that we're looking at?
    Mr. Bolkcom. I think all of us are trying to extrapolate 
with very little information, but I think the tea leaves 
suggest what Secretary Gates called a rebalancing towards some 
of these irregular capabilities.
    Senator Burris. Thank you.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thanks, Senator Burris.
    We're a little out of order, but, Senator Begich, you've 
not had a chance yet, and then we'll go back to Senator Thune.
    Senator Begich. Thank you, Mr. Chairman.
    If these questions have been answered, I apologize. I'll 
start with the refuelers.
    There is some discussion of having the air refuelers as 
kind of multi-role aircraft; some call it ``floors and doors 
and everything else included.'' Can you give me just some 
comments on that? Are we overbuilding for those refuelers? In 
conjunction with that, under Secretary Gates's proposal, we 
will not continue adding to the C-17s; is it wise then to have 
these kind of multifaceted facilities, or should we be doing 
the C-17s and have a more streamlined refueler? These are some 
of the multiple questions around those issues. I'll look to the 
General and Mr. Bolkcom and Mr. Watts, in that order, if you 
don't mind.
    General Hawley. Our refuelers have always had multiple 
capabilities. They've been able to evacuate medical patients, 
and they've been able to carry pilots. To my knowledge, the Air 
Force has never paid a lot for those capabilities; they're 
relatively modest add-ons to an airplane that is configured and 
designed to be a refueler. They're valuable capabilities, 
they're very useful in some circumstances, and they can augment 
the airlift capabilities that our primary designed airlifters, 
like the C-17 and the C-5, give to us.
    If we constrain our airlift force to 205 C-17s, augmented 
by the surviving C-5s that are going to be modified, then these 
multi-role capabilities of the new tanker, if we ever get a new 
tanker, will probably prove to be very valuable.
    The challenge for our airlift operators has always been to 
figure out the operational concept to use the tankers' multi-
role capabilities for those medical evacuation or airlift 
purposes. But, the current commander at Scott says that they're 
working on that, they know how to do it, and they want these 
tankers to have those multi-role capabilities so that they'll 
be there to augment their airlift capability.
    Senator Begich. But it shouldn't be a substitute for C-17s.
    General Hawley. It is not envisioned to be a substitute; it 
is strictly a complement, a reserve capability, if you will, 
when you're operating in extremis, and your C-17 and C-5 
capabilities are completely committed elsewhere.
    Senator Begich. Okay.
    Mr. Bolkcom. I'd echo almost everything I just heard. They 
are different platforms. The C-17 and C-5 provide an outsize/
oversize carrying capability for oddly shaped, large things we 
need, like helicopters or small artillery pieces, or even a 
tank. There's no way anything else is going to carry that but 
the C-17 or the C-5. So, our aerial refueling capabilities 
provide a great augment, as the General just mentioned. I think 
it's on the order of about 3 percent of our organic million-
ton-mile-per-day capability, so it's a twofer, and it makes 
sense.
    One thing I just want to point out, and I think the General 
made this point, about expanding the Army and the Marine Corps, 
and how that could put increasing stress on our C-17 force. I 
think that makes a lot of intuitive sense, except I would like 
to point out that I don't think the purpose of increasing our 
ground forces is because we want to deploy more of them faster, 
but to relieve the personnel tempo by creating a larger pool of 
these foot soldiers who need to deploy. So, I don't think the 
operations plans have changed. I don't think that we are 
planning now, because of the growth of the Marines and the 
Army, to get them there faster. But, that might be something 
worth looking into.
    Senator Begich. Thank you.
    Mr. Watts, do you have anything to add to this?
    Mr. Watts. The only comment I'll make is Jim Roche, who was 
Secretary of the Air Force from 2001 into early 2005, is a 
former colleague and a long-time friend, and, while he was 
Secretary of the Air Force, one of his recurring nightmares 
was, ``What if I have to ground the C-135 fleet or the KC-135 
fleet?'' All the Services depend on that air-refueling 
capability. So, I guess I'm less concerned with the additional 
capabilities you might get with those platforms than the fact 
that, over the last decade, we have not started recapitalizing 
the tanker fleet. I really just think that's an important 
issue.
    Senator Begich. On the issue of the refuelers and the whole 
idea of split purchasing; any feedback that you want to give on 
that?
    I'll start with Mr. Bolkcom, because he looked anxious, it 
was like a test; he pulled out his pen, he's already writing 
the answer. So, you're first.
    Mr. Bolkcom. Thank you, Senator.
    The administration has been pretty consistent that they're 
against a split buy. The argument against a split buy is that 
it costs more money upfront. You may get savings down the road 
through competition. But, you definitely will incur more 
operations and support costs by fielding a heterogeneous fleet 
with two different kinds of airplanes.
    I have heard some interesting arguments for a split buy. 
One, of course, is potentially an industrial-base issue.
    Senator Begich. You mean in preserving the industrial base?
    Mr. Bolkcom. Yes, sir.
    Senator Begich. Okay.
    Mr. Bolkcom. I think maybe an argument with a little more 
traction is that, ``Well, if you're in a hurry, you can have 
two lines running and procure them faster that way.'' CRS 
doesn't take a position, of course, but those are some of the 
arguments.
    Senator Begich. The arguments.
    Mr. Bolkcom. Yes, sir.
    Senator Begich. General?
    General Hawley. We've operated a multiple number of tankers 
for a long time in the strategic role. We have the KC-10 and 
the KC-135. The Air Force's tanker plan is to eventually repeat 
that. They envision this current round of competition to fill 
the kind of medium-sized tanker with a subsequent buy, later 
on, of another kind of tanker, which would do the KC-10 end of 
that mission. So, there are multiples already. Most of these 
things are maintained under contract or logistics support, so I 
don't think the argument that they're going to cost more to 
support holds a lot of water, because mostly we just use the 
existing support capabilities that these things are capable of 
in their commercial variants. Both of them have commercial 
variants.
    To me, the argument for a split buy is merely, ``Hey, we 
need to get on with this.'' There seems to be a political 
obstacle to getting a tanker in the field, and this would allow 
us to get past that political obstruction and begin to build 
anything, the warfighter needs these things, and they need them 
now. Our tankers are 50 years old. They'll be 75 or 80 years 
old before we get to retire them, even if we start building a 
tanker today.
    The downside of a split buy is that it requires you to fund 
two lines of production over a long period of time, and that's 
a lot of money each year, because there's a minimum production 
quantity. That would require a commitment from DOD and Congress 
to maintain that kind of funding support to buy 25 up to maybe 
30 tankers a year in order to maintain the 2 production lines. 
I think that would be the biggest challenge.
    Senator Begich. Thank you very much.
    I've run out of time, but if you have a very quick comment?
    Mr. Watts. No, sir.
    Senator Begich. Thank you very much. Thanks for your 
answers.
    Senator Lieberman. Thank you, Senator Begich.
    Senator Thune, back to you.
    Senator Thune. Thank you, Mr. Chairman.
    Let me ask a little bit about fighters. In a limited 
defense budget, would buying more quantities of legacy 
aircraft, such as your F/A-18s, F-15s, and F-16s help mitigate 
a strike fighter shortfall in our tactical aviation wings?
    General Hawley. As you might expect, during my time on 
Active Duty, particularly as Air Combat Command Commander, we 
examined that a lot. I think, if we had addressed this question 
10 or 15 years ago, the answer might be yes. Today, I think 
it's no. We're too far down the road. The F-35 is going to be a 
great airplane for all three Services. I think it would be a 
serious mistake to undercut that program by trying to fill 
holes in the forest today with legacy airplanes.
    Senator Thune. They're retiring F-16s already, though, and 
they're going to be retiring them at an accelerated rate, here 
in the next few years. F-35s are probably not going to be 
rolling out soon enough to replace those, and we have lots of 
installations out there that are going to be probably missing a 
mission for a while until the F-35s are there to replace the F-
16s. I guess that was the context of my question; does that, in 
your view, not make sense to have that kind of bridge between 
the current technology and the legacy aircraft in the next 
generation with the F-35?
    General Hawley. In my view, the problem is that when you 
buy one of these airplanes, you're going to have it for 30 
years, maybe 40. It's a very long-term commitment. If we buy 
three or four or five or six squadrons of these things, that 
means they're going to be in the force in 2050. I don't think 
they're the right airplanes to have in the force in 2050.
    Senator Thune. Mr. Bolkcom?
    Mr. Bolkcom. Sir, I understand the Air Force and the Navy's 
calculations for their projected fighter gap. I'll point out 
that it's based on some assumptions. One assumption is that we 
continue the current utilization rate of the fighter force. 
That may or may not come to pass. Another assumption is that 
the UAVs that we're buying in large numbers now aren't included 
in that mix, when they've mixed those numbers. If one does 
believe that Reapers and Predators provide some air-to-ground 
capability that would otherwise be provided by fighters, 
perhaps the gap would be a little less.
    That said, I agree with what the General said about the 
length of time in the fleet. I'll just point out that the 
fighters we fly today tend not to have active electronically 
scanned array (AESA) radars, joint helmet-mounted queuing 
systems, and some of the latest-generation countermeasures. 
Certainly, adding those to some already very good platforms 
would increase capabilities.
    Senator Thune. Digressing, for a moment, to the next-
generation bomber; I had an extensive discussion with General 
Hawley about that but Mr. Watts, you've written extensively on 
that subject, about the need to develop a long-range strike 
capability. If I could get you to give your take on the 
direction that the President wants to take on that next 
generation bomber capability. You mentioned that you didn't 
think that the current generation of bombers could fill that 
25-year timeframe we talked about earlier. But, maybe just your 
view of why they are coming to the conclusions and making the 
assumptions they are about delaying the development of this new 
aircraft.
    Mr. Watts. My impression is that there is still 
considerable disagreement about whether to go forward, 
particularly within portions of OSD. If I think back about a 
lot of the studies that have been done over the last decade, 
there seems to be, on the part of some involved in thinking 
through what you might really wish to develop and procure, a 
tendency to get mesmerized by technology promises further out 
on the horizon.
    My focus, to go back to the beginning, is that those 20 
platforms you have left--the B-2 force--it's just hard for me 
to believe that those are going to satisfy, in the long-term, 
our requirements to be able to hold targets at risk, even in 
defended airspace, over the next 2 to 3 decades.
    You did touch on the issue of things that could be done to 
improve the existing platforms. I would just add, in the case 
of the B-2, the computational capability onboard the airplane 
is something that's been debated back and forth, and that would 
really provide a significant increase in the capability of that 
airplane. The processors that were originally put into the 
airplane were basically 286 IBM processors. If you had a 286 
laptop and took it to your local lending library, and asked 
them if they wanted it, they wouldn't, because it won't even 
run Windows. So, that kind of a capability, which you do see in 
the JSF is one of the paths in which you could really improve 
the utility of that platform, going forward, if you wished.
    Senator Thune. Thank you, Mr. Chairman.
    Again, I want to thank the panel for their great testimony.
    Senator Lieberman. Thanks, Senator Thune.
    I have a couple more questions, and if my colleagues, 
Senator Begich or Senator Burris, want to, we can go until 
about 4 o'clock.
    As I indicated briefly in my opening statement, one of the 
more important developments in recent years has been the demand 
for and capability to provide persistent full-motion video 
surveillance to ground commanders from the air. It's quite 
remarkable. Some of those systems have not even completed the 
normal research and development cycles, although that's 
happened before, remembering the contribution that fielding the 
Joint Surveillance Target Attack Radar System (JSTARS) made in 
the first Persian Gulf War, even though that technology had not 
yet fully completed development at the time it as pressed into 
service.
    I wanted to ask you, are there broader implications from 
these technological developments for the contribution of 
aviation to irregular warfare? Related to that, are there 
systems that you think we should be developing and fielding 
that would take greater advantage of the ability to 
persistently see the battlefield?
    General Hawley?
    General Hawley. You mentioned JSTARS. In addition to full-
motion video being of great value in the theater, we're also 
finding, more and more, that the forces on the ground really 
appreciate the ground-moving-target indicator capability and 
the synthetic aperture radar (SAR) capability, the high-
resolution SAR that some of these airborne radars, like the 
JSTARS, can provide. They're of great value, both in the 
realtime application and in the forensic analysis of the 
product as they try to track down some of these bomb layers 
back to their lairs so that they can get the bombmaker rather 
than just the bombplanter. Those capabilities are 
extraordinarily valuable to the forces on the ground.
    One thing we could do is continue to modernize these wide-
area surveillance platforms, the JSTARS being the primary one 
in our inventory today, although the Navy has some very capable 
platforms, as well, with upgraded radars and sensors, 
communications, and that onboard computational power that Barry 
mentioned for the B-2, because these modern radars, the AESA 
radars that are now available, form the heart of the F-22 and 
the F-35. Those same technologies hold great promise to provide 
enhanced capability for our forces on the ground in these areas 
of high-resolution SAR, not only for the take that provides, 
both the ground-moving target indicator and the radar pictures 
that they provide, but also the ability to increase and gain 
leverage from these other systems that look at a much smaller 
area, like the Predator, because you can provide that broader 
situational awareness so that they can be better targeted.
    So, that is an area where I think we could focus.
    Senator Lieberman. Good.
    Mr. Bolkcom, do you want get into that one?
    Mr. Bolkcom. Thank you, sir.
    The one thing I'd like to add is, over time, in 
conventional state-on-state conflict, we have seen some 
friction between the Army and the Air Force over some aviation 
capabilities. CAS is one area where there has been some 
friction. What I see is, when we need to engage these nonstate 
actors, irregular forces, oftentimes the observe, orient, 
decide, and act loop is very tight and compressed. I see the 
Army moving pretty aggressively towards fielding their own UAVs 
that are organic to their small units, that they can control, 
and that they can use all the time; they don't have to wait for 
an air tasking order. I don't know yet how much encroachment or 
friction we'll see with the Air Force, who likes to control 
some of the larger UAVs, but I see that a potential area where 
Congress might want to keep an eye on that.
    Senator Lieberman. Okay, thank you.
    Mr. Watts?
    Mr. Watts. I certainly support what General Hawley said on 
the growing utility of these systems. It really does hinge 
increasingly on, for example, AESA radars and things of that 
sort, and the ability to pull the information into central 
command-and-control facilities so you can really integrate it.
    We have come a long way over the last decades. Indeed, the 
use of UAVs for surveillance and persistent reconnaissance is 
really one of the areas in which you could argue Dr. 
Krepinevich's revolution in military affairs. The Services 
really have gone forward fairly smartly and done what needed to 
be done.
    Senator Lieberman. I agree. We were talking earlier about 
how you can't predict what the next generation of conflict is 
going to be; where the enemy's going to be, or the nature of 
conflict. But, obviously it was not so long ago, in the 1990s, 
when some people were saying that all we needed was air power 
to win wars, right? I know that none of you, at this table, 
would say that. It was an overstatement. Now, of course, 
there's a danger that people will say, ``Oh, this is all boots-
on-the-ground.'' But the truth is that it really is joint 
warfighting.
    I can tell you, just having heard your answer to this last 
question, General, a couple of us went down to visit General 
Petraeus in Tampa, CENTCOM, just for a whole review of his area 
of responsibility. He went back and showed us a fascinating 
diagram of the battle for Sadr City and the different elements 
that were involved; U.S. ground forces, Iraqi ground forces. It 
was quite fascinating to see. Overhead, there was the JSTARS 
aircraft, and there were some drones there, too, that played a 
very critical role in a remarkably diverse series of assets 
that achieved a great victory for us.
    So, I don't know if you want to comment on that.
    General Hawley. Well, it is. It wasn't just Fallujah, but 
it's increasing since Fallujah, the ground forces' reliance on 
these systems, because it gives them the thing that, as a 
fighter pilot, I craved most, which was situational awareness.
    Senator Lieberman. Right.
    General Hawley. It's hard to appreciate how valuable it is 
to know what's going on around you.
    Senator Lieberman. Right.
    General Hawley. These systems give those troops on the 
ground the ability to have situational awareness about what's 
going around, who's moving where, and in the forensic sense, 
who moved where, so that they can then go do their job better 
on the ground and eliminate some of these threats to the 
civilian populations that we're trying to protect, and to our 
own forces.
    Senator Lieberman. Yes.
    I agree. I think, too, probably one of the more prominent 
conclusions today, and I think you made the case well, is the 
role of the long-range strike forces in irregular warfare, 
larger than most people would intuitively think. Then, of 
course, this tremendous role of ISR on aircraft in the 
irregular wars that we're fighting now.
    Senator Begich, that's all that I have.
    Senator Begich. Thank you very much, Mr. Chairman. I have 
one other area. Let me make sure I do this right.
    I'm going to have to flip back and forth between the 
report, Mr. Bolkcom, that you had prepared and determined that 
it's the Joint Striker Fighter, the F136 alternative engine. 
I'm a new member, so I don't know if I'm enjoying the reading 
or finding it interesting, but in this one I'm trying to figure 
out on the F135, which is the replacement that's been selected 
by DOD, from your review, is that engine capable of doing 
everything we need, as the replacement? Then it's going to lead 
to a couple more questions, so I want to kind of prepare you. 
So, keep that answer simple so I can go to the next.
    Mr. Bolkcom. The answer is yes.
    Senator Begich. Okay. Thank you.
    Now, I'm going to lay out what I think I understand of the 
facts, and correct me if I'm wrong, then again it leads to 
questions. The F136, back in 1996 or 1997, Congress said, ``We 
want to have an alternative, we want to have some 
competition.'' They funded some development, over $2.5 billion. 
DOD's never been a big fan of that, but it's been in there to 
create another alternative. Now DOD has made the decision that 
we're going with the F135, but we've now invested in this 
alternative. Is it fair to say that when you add alternatives 
or you have competition like this, of two engines that have the 
capacity to do the job, isn't it going to drive down the price? 
What was Congress's original purpose in 1996? Wasn't that part 
of it?
    Mr. Bolkcom. Yes, sir. There's a number of arguments for 
the engine. One is the idea that if the fleet is grounded 
because of a problem with one engine, you have another. That 
may or may not be a strong argument, in one's mind. But the 
economic argument has to be the dominating one. You hope, over 
time, you will recoup the savings of your upfront investment. 
There's been a number of analyses done about how many engines 
we're going to buy and how much the upfront investment is going 
to be, how much we're going to save through this competition, 
and all these thing depend on exactly how we couch the 
competition. Is it just for procurement only, or, as in the 
Great Engine War, as they call it, do you also compete the 
operations and support contracts?
    So, a lot of it has to do with how you orchestrate this 
competition.
    Senator Begich. What's the predominant future utilization 
of which engine type by the Europeans and our allies?
    Mr. Bolkcom. I don't know if I can answer that 
authoritatively. I believe, as the only engine that's part of 
the program of record, they plan on acquiring the F135.
    Senator Begich. I'm interested in what they're planning 
now, but what they're really planning into the future.
    These are my words, so you can acknowledge them or just 
ignore them, but the way I read this is, Congress set a course 
of competition; DOD didn't do it. They did all the money for 
planning. They basically said to Congress, ``We're doing that. 
We're doing that research.'' But, at the end of the day, they 
stuck with the F135 without even competing the development of 
it or the building of it. Is that how I read your report, or am 
I missing something?
    Mr. Bolkcom. No, sir. I think that's exactly the rub. I 
think it's the law that they fund this airplane with funds that 
are appropriated, and they have not requested that money over 
the last couple of fiscal years.
    Senator Begich. Okay.
    I'll leave it at that, only to say thank you. It's a very 
interesting read, and I guess, Mr. Chairman, that's one before 
my time. You were here in those years, and I'm just thinking it 
seems that, at some point, the competition would make so much 
sense, especially on a simple engine design. I say simple, and 
it's not simple. But, I mean in the sense that it's an engine, 
especially when Congress gave direction, not just 1 year, 
because they authorized money throughout the process. It's not 
just a 1-year quirk; it's a multiple-year desire by Congress. 
It just seems odd that they would just ignore that and do what 
they want to do.
    So, I'll just leave that. But, I appreciate the 
information. This is very good information for me. Thank you 
very much.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Begich.
    Thank you, gentlemen. I want to mention that Senator Bill 
Nelson came in and he left two questions. One, we really 
covered, which is a comment on your current state of technology 
maturity, need, and requirement for long-range bombers. Second, 
he talks about the fact that bomber aircraft are the only 
recallable nuclear capability. Intercontinental Ballistic 
Missiles and Submarine-Launched Ballistic Missiles when 
launched, cannot be recalled, and he wanted a comment on that 
issue, and, generally, your views on maintaining a nuclear-
capable bomber.
    If it's okay with you, I think we'll submit that formally 
to you, General Hawley and Mr. Watts, and ask for a short 
statement, in writing, which we'll add to the record.
    [The information referred to follows:]

    General Hawley. The concept of a nuclear deterrent force based on a 
triad of Intercontinental Ballistic Missiles (ICBMs), Submarine-
Launched Ballistic Missiles (SLBMs), and manned bombers has been one of 
the most enduring and successful strategies ever developed for our 
Nation's defense. When combined in a balanced way, the unique 
characteristics of each leg of this deterrent triad make it nearly 
impossible for any adversary to launch a nuclear attack on the United 
States without suffering from a disabling retaliatory strike. The 
manned bomber contributes several unique capabilities to this triad, 
one of which is the ability to be recalled after launch. Bombers can 
also be placed on various levels of alert, to include airborne alert, 
an attribute that proved of enormous value during diplomatic 
confrontations with the former Soviet Union. Bombers are also able to 
locate and attack mobile or movable targets, an attribute that may be 
of growing importance when dealing with emerging threats such as those 
posed by a nuclear armed Iran or North Korea. Department of Defense 
proposals regarding development of a next-generation bomber are likely 
to be heavily influenced by the outcome of strategic arms limitation 
discussions with Russia. Should those discussions result in a 
significant reduction in our nuclear warhead inventories, there may be 
no requirement for a nuclear delivery capability in a next-generation 
bomber, so long as the B-2 continues to be sustained and modernized.
    Mr. Watts. The most obvious situation would be nuclear strike. 
ICBMs and SLBMs are not recallable, whereas with a manned bomber the 
President could call off the strike within the last few minutes. The 
additional time that would be provided for a change of mind is, of 
course, limited. For an ICBM it would be a maximum of 20-25 minutes. 
But in the latest Center for Strategic and Budgetary Assessments bomber 
paper, I argued that these few minutes might be psychologically 
desirable even if the extra decision time they might buy the President 
is actually quite limited.
    A related observation is that senior military leaders are still 
reluctant to unleash armed robots in the battlespace. That's why the 
Air Force insisted on adding a data link to the Low Cost Autonomous 
Attack System, which was a small lethal unmanned aerial vehicles that 
used laser radar to identify targets and attack them on its own with a 
conventional warhead within a limited area (roughly 50 to 100 square 
kilometers depending on the range to the search area). The idea of a 
robotic bomber flying around with a nuclear weapon will probably be 
even more discomforting and unacceptable to both military and civilian 
leaders. These reservations are cultural and psychological, but they 
are real nevertheless.
    In the case of an unmanned long-range strike system (LRSS) carrying 
conventional precision weapons, a data link enabling human operators to 
tell the system whether or not to attack a given target would be highly 
desirable. Naturally, a lot of sensor information from the platform 
would have to be available before the human could make a go/no-go 
decision. Therefore, even this modest step beyond Predator. Reaper, et 
cetera, would involve vulnerabilities inherent in the data links 
between the remote operator and the vehicle. On the other hand, there 
would be no pilots lost if an unmanned LRSS happened to be shot down.

    Senator Lieberman. I thank you very much. It's been a very 
helpful hearing, from the subcommittee's point of view. As I 
said at the outset, I think it will inform our work here on the 
authorization bill.
    We'll leave the record of the hearing open for 10 days for 
additional statements that you may want to submit to the record 
and any questions that any other members of the committee have.
    You've done us a real service today, and I thank you for 
that.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Saxby Chambliss
                        f-22 and c-17 production
    1. Senator Chambliss. General Hawley, you comment in your written 
statement that, ``Should the President and Congress conclude that our 
forces should be sized to deal with only one contingency where our 
control of the air is contested, that will be an appropriate time to 
terminate production of the F-22. Until then, the actual requirement is 
for 381 aircraft, not 187 or even 243.'' Do you agree that both F-22 
and C-17 production should be continued until the Quadrennial Defense 
Review (QDR) properly analyzes the future requirement for these 
systems, in light of our national security and military strategy?
    General Hawley. In my view, ending production of the F-22 and C-17, 
when coupled with recommendations to terminate programs to modernize 
our long-range strike and combat search and rescue capabilities, and to 
cancel the second airborne laser development aircraft, represent a 
major change to our national defense strategy. Such major strategic 
shifts have historically occurred only after a vigorous public debate 
and with concurrence of Congress in execution of its oversight 
responsibilities. These decisions do not appear to have been informed 
by any public debate. Instead, they are the product of deliberations 
conducted entirely within the Department of Defense (DOD) by a small 
group of senior officials sworn to secrecy. Notably absent were those 
senior military officers currently responsible for executing the 
affected missions. Moreover, we should not expect the pending QDR to 
produce an objective analysis Congress can use to judge the wisdom of 
these changes. It will, after all, be guided by the very same officials 
who developed the recommendations you are discussing. Therefore, I hope 
Congress will seek a much broader range of opinion and analysis than 
that produced by the QDR as it considers these issues.
    While some of the changes being contemplated could be reversed in 
time, the option to fully secure our ability to provide air superiority 
and strategic mobility will vanish when the F-22 and C-17 production 
lines are shut down. Therefore, it seems prudent to extend production 
of both systems until Congress and the public have had an opportunity 
to debate the wisdom of these de facto changes to our national defense 
strategy.

     unmanned aerial vehicles and intelligence, surveillance, and 
                        reconnaissance platforms
    2. Senator Chambliss. General Hawley and Mr. Watts, there is a real 
and growing concern that hostile air space could deny access to our 
manned and unmanned airborne intelligence, surveillance, and 
reconnaissance (ISR) platforms. As we saw in Georgia recently and as is 
the case in numerous other countries, air defenses are robust enough to 
preclude the use of non-stealth unmanned aerial vehicles (UAVs). Even 
against older surface-to-air missiles (SAMs) and 3rd and 4th generation 
fighters which most all developed nations possess--as well as some 
undeveloped nations--most every UAV we have in the inventory is 
completely vulnerable. Now and for at least the next several years, 
only the F-22 has the ability to ensure access to this type of airspace 
and allow our UAVs to operate freely. Both the fiscal year 2009 
supplemental and proposed fiscal year 2010 budget request contain 
additional funds for UAVs and manned ISR platforms on the order of 
billions of dollars. Of the platforms that these budgets would procure, 
none of them will be full-fledged stealth platforms comparable to the 
stealth capability of the F-22 and F-35.
    In your judgment, does the ``UAV surge'' that Secretary Gates is 
recommending we undertake make sense given that these systems may very 
likely be denied access to key locations outside of our ongoing 
operations in Afghanistan and Iraq, and how does this inform the need 
for 5th generation stealth fighter aircraft to ensure access for our 
manned and unmanned airborne ISR platforms?
    General Hawley. I fully support DOD's proposals to improve our 
ability to provide surveillance and reconnaissance of the battlefields. 
In fact, they probably do not go far enough in some areas, such as 
modernization of our Joint Surveillance and Target Attack Radar System 
(JSTARS). But as you point out, none of these systems that have proven 
so critical to the success of our forces on the ground can operate 
effectively against even modest air defenses. That is why production of 
the F-22 should not be terminated until Congress has had an opportunity 
to examine the implications for our defense strategy and accepts the 
assumption that we will not be tested by more than one adversary 
capable of seriously contesting our control of the air. In examining 
that assumption, I hope Congress will recall our experience in Vietnam, 
where we lost more than 2,200 fixed wing aircraft to a fairly modest 
deployment of surface-to-air and air-to-air defenses.
    Mr. Watts. The current inventory of wide-area, high-end ISR 
platforms--primarily Predator, Global Hawk, and Reaper--are not 
particularly stealthy platforms. So far as I know, none of the three 
just mentioned incorporate low-observables technologies. Consequently, 
they are quite vulnerable to modern SAM systems such as the Russian S-
300 and S-400 SAMs. If the United States hopes to be able to operate 
these kinds of ISR systems inside airspace defended by current and 
future SAMs, there are two options.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    First, we could begin moving toward stealthy unmanned ISR 
platforms. Northrop Grumman claims that its X-47B drone (pictured 
above) will begin initial flight tests in the fall of 2009. In other 
words, DOD is already developing low-observable UAVs. A possible action 
for Congress in this regard would be to accelerate fielding these sorts 
of ISR platforms. In the long run, it seems likely that the United 
States will need to pursue these kinds of ISR platforms in any event.
    Second, one could consider using F-22s--or later, F-22s and F-35s--
to eliminate advanced SAMs, thereby enabling U.S. forces to employ non-
stealthy UAVs such as Predator and Global Hawk in enemy airspace, or to 
operate manned ISR platforms such as JSTARS close enough to enemy 
targets to be useful. My sense is that the appetites of the combatant 
commanders for more ISR is insatiable. They will always want more than 
they have. Hence, Secretary Gates' ``UAV surge.'' But to use a 
temporary, hypothetical ``window of vulnerability'' for non-stealthy 
UAVs as an argument for buying more F-22s strikes me as a weak argument 
given the ongoing development of UAVs like the X-47B. Frankly, given 
all the other priorities, I am inclined to argue that the most sensible 
response would be to fully fund programs like the X-47B and ensure that 
the Navy presses ahead with the Unmanned Combat Air System (UCAS) 
program. UCAS would provide the Navy's carriers with a survivable ISR 
platform having much longer legs than F/A-18E/Fs, thereby beginning to 
address emerging anti-access/area-denial systems aimed at holding U.S. 
carrier battle groups at arms' length. So I would recommend patience 
rather than trying to solve the vulnerabilities of current ISR UAVs in 
the fiscal year 2010 defense budget.

    [Whereupon, at 3:53 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
